<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         MONDAY, JULY 11, 2005

                                       U.S. Senate,
                            Subcommittee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Stevens, Inouye, and Durbin.

                  CORPORATION FOR PUBLIC BROADCASTING

STATEMENT OF KENNETH Y. TOMLINSON, CHAIRMAN, BOARD OF 
            DIRECTORS

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning, ladies and gentlemen. The 
hour of 11 o'clock having arrived, the Appropriations 
Subcommittee on Labor, Health, Human Services, and Education 
will now proceed. This morning's hearing will focus on the 
funding for public broadcasting. The subcommittee is now in the 
final phases of preparing our submission to the full committee, 
which will be done later this week, and I thought it would be 
useful to consider the issue which has received public 
attention as to the appropriate level of funding for public 
broadcasting.
    There has been some concern expressed as to whether there 
is sufficient balance on public broadcasting. The subcommittee 
thought it would be useful to have this hearing to explore 
these issues before we make our final recommendations before 
the subcommittee meeting tomorrow and the full committee on 
Thursday. Then of course, there is floor action. So we think 
this would be helpful as a prelude what committee action on the 
appropriate level of funding should be. Congress likes to keep 
its hands off of these matters to avoid any politicization at 
all, but we do have the oversight responsibility and we have 
the appropriations function, so we are going to proceed with 
this hearing.
    I would like to call the witnesses at this time: Ms. 
Patricia Harrison, President and CEO of the Corporation for 
Public Broadcasting; Mr. Ken Tomlinson, Chairman of the Board 
of Directors; Mr. Pat Mitchell, President and CEO of Public 
Broadcasting Service; Mr. John Lawson, President and CEO of the 
Association of Public Television Stations; Mr. David Boaz, 
Executive Vice President of the Cato Institute.
    Well, welcome, ladies and gentlemen. Thank you for coming 
in on a Monday hearing. Monday morning activities in the 
Congress are somewhat limited by tradition, but it is a very, 
very busy week with a great many items on our Congressional 
agenda.
    Our first witness is Mr. Ken Tomlinson, Chairman of the CPB 
Board of Directors. First elected to the board in 1993, he 
began his career as a journalist with the Richmond Times-
Dispatch in 1965; was a correspondent in Vietnam and was 
Director of the Voice of America for 2 years. Mr. Tomlinson was 
Editor in Chief of the Reader's Digest until he retired in 
1996.
    Our practice, ladies and gentlemen, as I think you have 
already been advised, is to have 5-minute opening statements, 
leaving the maximum amount of time for questions and answers 
following the opening statements.
    Mr. Tomlinson, thank you for joining us and we look forward 
to your testimony.

               SUMMARY STATEMENT OF KENNETH Y. TOMLINSON

    Mr. Tomlinson. Thank you, Mr. Chairman. I did submit my 
testimony for the record so that we could preserve as much time 
as possible.
    I am proud to be here in support of Federal funding for 
public broadcasting. I happen to believe that increasing the 
education basis of our children's programming alone merits a 
great deal of focus in terms of what we do in the coming weeks 
and months. As you well know, it is easier to show cartoons 
than to produce programming that has an education basis. We 
should be working so that our education-based programming helps 
young people learn how to read, but also helps people become 
interested in civic responsibility and, in the tradition of Tom 
Friedman, in math and science as well.
    We have a rich history of cultural programs coming out of 
WNET in New York that I would like to see us be able to 
continue and expand. Obviously, across the river at WETA we 
have the great tradition of the ``Jim Lehrer News Hour.'' This 
is journalism dating back to the original ``McNeil-Lehrer 
Report,'' journalism that represents the highest standard. 
There has never been any question of balance on that program.

                           PREPARED STATEMENT

    We look at the importance of the digital conversion. We 
look at the demands we face in terms of the need for a new 
interconnection system. I have brought the issue of the 
importance of political balance, common sense political 
balance, to the public debate. This should not overshadow the 
needs that public broadcasting has, and I am very pleased to be 
here to support those needs.
    Thank you.
    [The statement follows:]
               Prepared Statement of Kenneth Y. Tomlinson
    I come to you this morning as an individual who supports Federal 
funding for public broadcasting.
    I believe that education-based children's programming represents 
one of the most critical responsibilities for public broadcasters. We 
need to produce programming that will inspire children from all walks 
of life to want to read--to want to acquire knowledge about our 
nation's history and our own civic responsibilities. Taking a cue from 
Tom Friedman, we also should be inspiring interest in math and science, 
because surely we must recognize we live in a world that is flat.
    The cultural programs--the great performances that in recent years 
have been produced by WNET in New York--are an important part of the 
mandate of public broadcasting. The current affairs programs coming 
from WETA--I speak specifically for the tradition of journalistic 
excellence that is the history of the NewsHour with Jim Lehrer--merit 
our support. So, too, is the excellent programming that has come to us 
over the years from WGBH in Boston.
    The clock is ticking on the deadline for funding a new 
interconnection system for public broadcasting. The opportunities 
presented by a transition to digital broadcasting will open exciting 
new doors for the public broadcasting system.
    In recent months I have asserted over and again that you cannot 
understand the case for federal support of public broadcasting until 
you see the fruits of these services in states like North Carolina, 
Kentucky, and South Dakota. If you want to get an idea of the digital 
future of public broadcasting, go to North Carolina and see, thanks to 
public support for a bond issue, four channels that make public 
broadcasting far more relevant and far more valuable to the people of 
that state.
    I would be remiss this morning, however, if I failed to address 
issues surrounding my work to meet the legal mandate that Congress 
placed on CPB to require political balance. Listen to Section 19 of the 
law that governs what we do: CPB shall facilitate the development of 
programs ``of high quality, diversity, creativity, excellence, and 
innovation, which are obtained from diverse sources, will be made 
available to public telecommunications entities, with strict adherence 
to objectivity and balance in all programs or series of programs of a 
controversial nature . . .''
    I did not initiate the controversy over balance, and I am the first 
to recognize this controversy has not been good for the health of 
public broadcasting. So allow me to review the actions that I have 
taken to encourage political balance for the sake of encouraging a wide 
base of support for what we do.
    In late 2003, I went to the leadership of PBS to make the point 
that NOW with Bill Moyers had become a symbol of our ignoring our legal 
mandate to require balance. It was not that Bill Moyers work does not 
represent outstanding political advocacy broadcasting. I did not ask 
for a moment of the show to be removed from public broadcasting 
schedules. My point was that law requires a diversity of opinions, and 
on Friday evenings, public broadcasting would do well to reflect 
conservative points of view as it did so eloquently liberal points of 
view.
    When PBS leadership asserted NOW to be balanced, I asked that a 
consultant review six months of the program and assess the political 
direction of the program's content. Later, I would ask the consultant 
to review other programs on public broadcasting to illustrate that 
unlike NOW they reflected diverse political opinions. The contract for 
this consultant was processed under the supervision of CPB staff and 
our General Counsel according to CPB rules and regulations. I had never 
known CPB board members to be involved in approving contracts with 
consultants--and I had observed any of a number of consultants brought 
in by CPB executive leadership to do similar tasks--so I did not run 
this issue by the board. At no time did I make any effort to keep the 
contract secret from my fellow board members.
    Much has been made in recent days over the classifications of 
viewpoints expressed by Senator Chuck Hagel and former Congressman 
Robert Barr. As the researcher's work illustrates, Bill Moyers did not 
invite Senator Hagel on his show to give him a platform for advocating 
his belief that free trade is critical to the success of U.S. foreign 
policy. That would have run counter to Bill Moyers' deeply held beliefs 
that, by the way, were frequently given time on his program. No, 
Senator Hagel was asked to come to the Moyers show to talk about 
aspects of the war in Iraq that differed from the positions of 
President Bush.
    Bob Barr was not invited on NOW to discuss his political philosophy 
that largely is in conflict with Mr. Moyers' position. Bob Barr was on 
the Moyers program to attack the Patriot Act, which not coincidentally, 
Bill Moyers questioned.
    Again, there is an important audience for the liberal advocacy 
journalism that is Bill Moyers. The law, however, requires CPB to 
encourage balance when such programming is presented.
    Fortunately the board leadership of PBS recognized that Friday 
evening programming should reflect diverse points of view. When it was 
clear that PBS was following through on this commitment, I ended the 
study and did not make it public because to do so would have called 
attention to the fact that for nearly two years public broadcasting 
ignored our legal responsibility for presenting diverse viewpoints on 
controversial issues.
    All of this occurred more than a year ago. So why did the issue 
become a staple in certain press venues in recent months? The answer to 
that question lies in the politics of public broadcasting--as well as 
the politics of year 2005. But one thing is certain. The more this 
debate continues, the more we jeopardize future public support for 
public broadcasting.
    Clearly, it is time for us to lay aside partisanship, seek popular 
consensus for what public broadcasting should be doing, and go forward 
to meet the challenges that lie ahead.
    I look forward to responding to any questions that the Senators 
might have.

    Senator Specter. Thank you very much, Mr. Tomlinson.
    We now turn to--you had concluded your verbal presentation?
    Mr. Tomlinson. Yes, sir.
    Senator Specter. Thank you.
    We turn now to Ms. Patricia Harrison, President and CEO of 
the Corporation for Public Broadcasting. Prior to taking her 
current position, she served as Assistant Secretary of State 
for Education and Cultural Affairs. In 1997 she was elected Co-
Chairman of the National Republican Committee, serving there 
until January of 2001, a graduate of American University.
    Thank you for joining us, Ms. Harrison, and we look forward 
to your testimony.

STATEMENT OF PATRICIA HARRISON, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, CORPORATION FOR PUBLIC 
            BROADCASTING
    Ms. Harrison. Thank you, Mr. Chairman. I too have submitted 
my written testimony----
    Senator Specter. All written testimony will be made a part 
of the record in full.
    Ms. Harrison. I would like, with your permission, to use my 
time just to make a few brief remarks.
    Senator Specter. That is fine.
    Ms. Harrison. Thank you. First let me express my strong 
commitment to and belief in the mission of public broadcasting. 
Although I have been in the position of President and CEO of 
CPB for only 5 working days, it is a belief I have long held. 
It began when I served as an intern at WAMU as a student at 
American University. It continued when my children were small 
and we all watched ``Sesame Street'' together, and then much 
later ``Masterpiece Theater.'' It grew as I listened to NPR in 
the morning before I began my day as Assistant Secretary at the 
State Department.
    I believe that public broadcasting is in the public 
interest, that it furthers the general welfare of all our 
citizens, that it is a vital connection to community for 
millions of Americans, all races, all ages, urban and rural, 
and for new Americans and their children. Public broadcasting 
strengthens our civil society and it merits the investment of 
monies represented by our budget request for 2006 and 2008.
    My second point: I am committed to protecting the 
nonpartisan nature of public broadcasting. As you said, I come 
to CPB after almost 4 years as Assistant Secretary of State, 
managing a bureau of hundreds of people, civil servants, 
Foreign Service officers, working with 1,500 public and private 
organizations and 80,000 volunteers to facilitate 30,000 
nonpartisan educational, cultural, and professional exchanges 
annually.
    I am ready to work with Congress, the CPB Board, staff, the 
public broadcasting stations, national organizations, public 
and private funders in an open and transparent way in order to 
serve the millions of Americans who turn to public broadcasting 
each week.
    Now let me turn to the budget. CPB is requesting $430 
million in advance appropriations for fiscal year 2008, the 
vast majority of which will go directly to local television and 
radio stations for locally based, locally relevant operations. 
The corporation requests $45 million in fiscal year 2006 for 
the ongoing conversion to digital technology. We are requesting 
$40 million in 2006 to fund the replacement of the public 
television interconnection system.
    Mr. Chairman, I recognize that we make these requests at a 
time of great pressure on the Federal budget. But when we 
appeal to Congress for funds, we should recognize that hundreds 
of thousands of Americans are already including public 
broadcasting support in their personal budgets by writing 
checks to support these programs, and the fact is that every 
dollar of Federal funding is matched six times over by 
voluntary contributions from viewers, foundations, 
universities, State and local governments, corporations, and 
small business owners, and of every dollar of Federal funding 
we receive 95 cents of that dollar goes to the local stations 
and services they provide. Public broadcasting really 
represents the best example of public-private partnerships.
    We have all read the research on the importance of early 
learning and, though ``Sesame Street'' showed us the way 37 
years ago, the need is even greater today. Public television is 
responding to that need and in fact it is public television's 
responsibility. Whether we are talking about ages 2 through 8 
and early learning programs or middle school to high school 
with a focus on history and civics, the aim is to ensure our 
country's successor generation is prepared for the future.
    For those who have questioned the relevance of public 
broadcasting in a multi-channel world, the answer is that 
public broadcasting is more relevant than ever. We address 
community needs, we provide entertainment, education, 
information programming, and none of this is matched anywhere 
else in the 500-channel universe. That is just one of the 
reasons more than 100 million Americans tune in every week for 
uninterrupted programs where they are treated as citizens, not 
just as consumers.

                           PREPARED STATEMENT

    Mr. Chairman, members of the committee, on behalf of my new 
colleagues in public broadcasting let me say how much we 
appreciate the vital support Congress continues to provide. I 
look forward to working with the committee on behalf of public 
broadcasting in the public interest.
    Thank you and I will be happy to address any questions you 
may have.
    [The statement follows:]

               Prepared Statement of Patricia S. Harrison

    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to discuss with you the Corporation for Public 
Broadcasting's funding requests for fiscal year 2006 and fiscal year 
2008. Although I became CPB's President only 1 week ago, I have long 
understood and appreciated the vital role that public broadcasting 
plays in the lives of so many Americans.
    I accepted the challenge of leading CPB because I believe that 
public broadcasting serves as a vital connector to community for so 
many Americans rural and urban. Public broadcasters offer television 
and radio worth watching and listening to, and that is why so many of 
us spend our most precious resource--our time--on public broadcasting. 
I believe public broadcasting is a unique source of education, 
information, and entertainment that fully deserves strong, continuing 
congressional support.
    There is another reason I wanted to lead CPB. It is based on my 
almost 4 years serving as Assistant Secretary of State for Educational 
and Cultural Affairs. In that capacity, I managed a bureau of hundreds 
of people, worked with 1,500 public/private partnerships and 80,000 
volunteers to conduct 30,000 cultural, professional and educational 
exchange programs annually, including the prestigious Fulbright and 
International Visitor programs.
    These vital programs were also connectors between the American 
people and citizens from other countries. In the early 1990's, the 
budget was cut for exchanges and just when we needed to have this 
critical outreach after September 11, 2001, the resources were not 
there. I am very proud that I was able to increase our budget with the 
help of Congress. My goal was to reach out beyond the elites to 
younger, more diverse audiences, and to affirm and connect with what we 
have in common as opposed to our differences. One example--with the 
strong support of Senators Kennedy and Lugar, we were able to create 
the first high school program for boys and girls from the Arab Muslim 
world.
    I see a similar challenge facing public broadcasting today. This is 
an important time to affirm what we have and to work to make it better, 
to reinvigorate public broadcasting and underscore its unique relevance 
in the multi-channel world.
    I have a proven track record of leadership, and I am ready, willing 
and eager to help lead this organization into a strengthened 
relationship with public broadcasting stations, national organizations, 
public and private funders, and the millions of Americans who turn to 
public broadcasting each week.
    As I begin my tenure at CPB, I am particularly fortunate to be able 
to build on what the corporation's staff and their colleagues 
throughout the public broadcasting community have already done. Mr. 
Chairman, today I will mention just a few of these initiatives--work 
that is possible, Mr. Chairman, because of the commitment made by 
Congress and so many others in the public interest, and work that I 
believe will help us leverage an even greater return on the public's 
investment.
    As the distinguished committee knows, public broadcasting is a 
collection of locally based stations that serve both local and national 
needs.
    Public broadcasters offer coverage of national news--and of local 
high school and college sports. They bring the world's greatest artists 
and performances into our living rooms, and they collaborate with local 
arts and cultural institutions. Public broadcasting reaches children 
just learning to read, and often these children are sitting in front of 
the television with parents who are themselves learning to read in a 
new language.
    Public broadcasting is not one size fits all. What you see and hear 
depends upon where you live and what the communities needs are.
  --in Pennsylvania, you can explore your state's history with Marking 
        Pennsylvania History on WHYY;
  --in Iowa, you can tune in to Living in Iowa, a monthly statewide 
        magazine show;
  --and in North Dakota, you can keep up on all the doings with Dakota 
        Datebook, daily on North Dakota Public Radio.
    All across the country, stations are bringing different services 
and programming, informed by community attitudes and concerns, to their 
audiences. They are able to do this so effectively because they are 
locally owned and operated. They know their communities, what their 
neighbors want in terms of programming, what their local organizations 
need in terms of support. In a word, they are connected. And that 
connection is one that distant commercial media simply can't or won't 
provide.
    Mr. Chairman, with your permission, I'd like to turn now to our 
funding requests and the ways in which those federal dollars benefit 
citizens and communities across the country.
    These requests were of course submitted before I came aboard last 
week, but I have had the opportunity to review them with staff and 
believe they merit strong support.
    CPB is requesting $430 million in advance appropriations for fiscal 
year 2008, the vast majority of which will flow directly to local 
public television and radio stations for locally based, locally 
relevant operations.
    Additionally, the corporation requests $45 million in fiscal year 
2006 for the ongoing conversion to digital technology. Mr. Chairman, 
this is so important. As the result of the investment made by Congress 
so far, hundreds of public television and radio stations are offering 
digital signals, and we have recently begun making grants to develop 
new digital services for local communities.
    Digital is the future of broadcasting and the future is here. Mr. 
Chairman and members of the Committee, public broadcasting must be 
enabled to participate fully in that future, and thanks to your ongoing 
support, it is well on the way.
    Finally, CPB is requesting $40 million in fiscal year 2006 to fund 
replacement of the public television interconnection system. Given the 
scheduled expiration of public television's satellite leases, we must 
not miss this opportunity to develop a system that is both more 
efficient and compatible with the new digital technologies.
    Mr. Chairman, I recognize that we make these requests in a time of 
great pressure on the federal budget. The requested funds, however, 
represent an investment of only about $1.75 per American--and the 
return on investment is far greater in terms of value to older 
citizens, urban and rural residents, and minority audiences. If this 
were a stock, I would argue it is one of the best investments the 
American people have ever made.
    Public broadcasting serves every one. There are no qualifications 
of age and income; no requirements for matching funds; no copays. 
Instead, public broadcasting is available to virtually every American, 
free of charge, in every community across the country. And every week, 
more than 100 million of our fellow citizens take advantage of the 
opportunity to tune in.
    In fact, this July 4th I began my day in Washington, D.C. listening 
to Morning Edition and the reading of the Declaration of Independence. 
My day ended at the Capitol Fourth concert and fireworks on the Capitol 
steps. Public television covered this event, which meant that my 90-
year-old mother and so many others like her throughout the country 
could share in the celebration of America's birthday without leaving 
home.
    Of every dollar CPB receives from the federal government, 95 cents 
goes to local stations, either directly, or indirectly to support 
radio, television and on-line programming, research and technology.
    The largest amount by far--72 cents of every dollar--goes directly 
to local public television and public radio stations. As I said, these 
stations are uniquely connected to their communities. They determine 
their own program schedules, and often produce their own programming; 
they respond to community needs and leverage local support.
    CPB also supports the creation of programming for radio, 
television, and new media. Probably every American is familiar with 
signature programs like Masterpiece Theater and Sesame Street, but 
today, we're funding tomorrow's classics. If you've heard any of the 
new StoryCorps or This I Believe segments on public radio or listened 
to Philadelphia's own Terry Gross, you know what I mean. And we have 
similarly high hopes for our newly announced children's programming 
initiative, which will continue public broadcasting's leadership in 
high-quality, non-commercial, educational programming for children; for 
America at a Crossroads, which will explore the issues facing us in the 
wake of the 9/11 attacks; and for the American History and Civics 
Initiative, which will capitalize on today's technology to reach and 
teach middle and high school students.
    To carry out its mandate to serve the underserved, CPB provides 
support to five minority consortia--representing the unique points of 
views of Latinos, African-Americans, Native Americans, Asian Americans, 
and Pacific Islanders. We also fund the Independent Television Service, 
through which the work of innovative, independent filmmakers is made 
available to the public television audience.
    And we also work to ensure that the programs we support have a life 
long after the television and radio are turned off. Materials are 
available on website and for classroom use and often prove enduringly 
popular as the years go on. Radio material, too, is available for 
download or web-based listening. And programming is frequently 
supported with direct, person-to-person outreach, something 
distinguishes public broadcasting from our commercial counterparts. In 
other words, our impact resonates well beyond the broadcast.
    Another six cents of every dollar go to projects that benefit the 
entire public broadcasting community. We negotiate and pay music 
royalties for all of public broadcasting, for example, allowing 
audiences nationwide to enjoy new and classic recordings, and we 
recently completed the most comprehensive audience research project in 
public television history, information that producers and broadcasters 
will use to guide programming decisions for years to come.
    With special appropriations from Congress, CPB helps local public 
broadcasters provide the advanced public service digital technology 
makes possible. We are funding the upgrade of the public television 
interconnection system that delivers programming to stations. And we 
are funding station purchases of digital equipment that they will use 
to provide new and needed streams of news, music, and public service 
programming. From homeland security information to special streams of 
programming for kids, the public investment is creating a deeper, 
richer mix of services available to people across the country.
    CPB's administrative expenses are limited by law to five percent, 
but we normally hold them even lower. Less than a nickel of every 
federal dollar stays in Washington; the rest is spent to benefit 
stations across the country.
    The Federal appropriation accounts for only about 15 percent of the 
entire cost of public broadcasting, and stations and other 
organizations must work very hard to raise the money to fund their 
activities. In fact, CPB funded the Major Giving Initiative, which has 
helped stations sharpen their community-based fundraising skills and 
improve their balance sheets.
    The Federal dollars are critically to leveraging all the other 
resources. It opens the door for funding from state and local 
governments, universities, businesses, foundations, by providing a 
``seal of approval'' from the Federal Government.
    The funding we receive from Congress ensures that public 
broadcasting continues to offer programming and services that are 
superior across the board to those offered by commercial competitors. 
As Ken Burns has said, ``The programming on PBS, in all of its splendid 
variety, offers the rarest treat amidst the outrageous cacophony of our 
television marketplace--it gives us back our attention and our memory. 
And by so doing insures that we have a future.''
    Public broadcasting attracts the support of viewers and listeners 
nationwide--people from all walks of life, who add their dollars to the 
vital core of Federal support, writing the checks to fund programs and 
services that are important to their lives, leisure, and careers.
    The Public Broadcasting Act describes public television and radio 
stations as ``valuable community resources'' that can help address 
local concerns. The American public has already invested a great deal 
in creating, preserving and now modernizing these resources. With the 
requested funding, we will work to fulfill their hopes and expectations 
by continuing to deliver high quality, high value services.
    Mr. Chairman, members of the subcommittee, on behalf of all my 
colleagues in public broadcasting, let me say how much we appreciate 
the vital support Congress continues to provide. And let me say 
personally that I understand how valuable public broadcasting is. Plain 
and simple, strong public broadcasting means a stronger democracy. I 
take that responsibility extremely seriously. Thank you, and I will be 
happy to try to answer any questions you may have.

    Senator Specter. Thank you very much, Ms. Harrison.
    We have been joined by the distinguished Senator from 
Hawaii, Senator Inouye, who has been in the Congress as long as 
Hawaii has been a State, initially in the House of 
Representatives and in the Senate, 1960?
    Senator Inouye. 1963.
    Senator Specter. 1963.
    Would you care to make an opening statement, Senator?
    Senator Inouye. I thank you very much, Mr. Chairman. But at 
this moment I would prefer just to ask questions.
    Senator Specter. Thank you. Thank you very much.
    Our third witness is Ms. Pat Mitchell, President and CEO of 
Public Broadcasting Service. She has a broad and distinguished 
background as a journalist, television executive, and educator. 
During her 3-decade career, she has been recognized at her work 
at NBC, CBS, ABC, and CNN; a graduate of the University of 
Georgia.
    Thank you for joining us, Ms. Mitchell. We look forward to 
your testimony.

STATEMENT OF HON. PAT MITCHELL, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, PUBLIC BROADCASTING 
            SERVICE
    Ms. Mitchell. Thank you very much, Mr. Chairman, and I 
welcome Senator Inouye on behalf of the PBS Board Chair Mary 
Bidderman, who hails from Hawaii, as you know.
    I am very grateful for this opportunity to be here to 
support the appropriations request for the Corporation for 
Public Broadcasting. Mr. Chairman, allow me to welcome Pat 
Harrison to the community of public broadcasting. Last week Pat 
and I shared the PBC Fourth of July Concert and we celebrated 
both our country's independence and also the value of a Public 
Broadcasting Service who can independently bring such a 
celebration through our local station, WETA, and its leader, 
Sharon Rockefeller, who is with us as well, into every American 
home.
    We understand the enormous responsibilities we all have in 
leading such a valued media enterprise at such a time of 
transformational change, a time when our mission, which is to 
use the power of media to serve the public good, is more needed 
than ever. And we are grateful, Mr. Chairman, that in such a 
time when you have such challenging choices to appropriate 
public funds that you continue to appropriate them for public 
media.
    Public media must have the public's trust. It is our rating 
system, our currency, our measure of achievement. In a recent 
Roper poll, Americans named public broadcasting the most 
trusted national institution in this country. The result of 
this trust is the collective good work of public broadcasting 
producers, stations, and the collective goodwill of the 
American people we serve. It is also, Mr. Chairman, the result 
of a collaborative, constructive relationship between the 
management of the public broadcasting organizations seated at 
this table.
    It is a great affirmation to know that Americans indicate 
in independent surveys they consider public television to be 
their best value for their tax dollars, second only to military 
defense.
    So what is PBS's role, then, in using these funds? We are 
not a network like ABC or CBS, but we do provide nearly 3,000 
hours of top-quality educationally-based programs to 170 public 
television stations, who distribute them to 350 communities. 
These are the programs that define public television, but they 
come through essentially local institutions, built on local 
values, serving public and local community interests.
    During my tenure at PBS, I have visited more than 100 of 
these stations and on these visits I have seen the positive 
results of public service media in our communities up close and 
personal. I wish I had the time to share the smiles and 
appreciative thank-you's that have come from parents and 
caregivers and teachers and home schoolers in every community. 
I meet these people and for them PBS is not a luxury or a 
burden; it is an important part of their lives.
    Let us not forget the 40 million Americans without cable or 
satellite. It also matters that, even in homes where there are 
300 channel choices, PBS is still among the top six media 
choices, viewed by more than 70 percent of Americans every 
month. Add to that the millions of visitors to pbs.org and 
station websites every day, learners of all ages, taking 
advantage of 175,000 pages of educational content. Then add the 
millions more that are reached through educational services and 
community partnerships, and you begin, Mr. Chairman, to get a 
picture of the true scale, the unparalleled power of reach and 
power that PBS and our stations in our community are bringing 
to communities in this country.
    We do it in ways that have earned the public's trust: 
children's programs that educate, science programs that 
illuminate, history that is definitive, memorable, news and 
documentaries that are trustworthy and reliable, because of the 
editorial standards that ensure accuracy, fairness, and balance 
across our schedule, all of our programs produced in the public 
interest, not to motivate consumers.
    PBS's management, Mr. Chairman, not the PBS board or any 
other party, is ultimately responsible for ensuring these 
standards guide our decision-making and public opinion polls 
verify that the public perceives we are doing it, free of bias 
and any undue influence from any source.
    Then beyond being a broadcaster that is so valued, we are 
also this Nation's largest educational service, the leading 
source of online lesson plans, 3,500 free on-line, the number 
one choice of educational content in classrooms. More than 5 
million adults receive their GEDs through public television 
stations; workplace essential training; and over the past 10 
years a partnership with the Department of Education has 
changed the lives of hundreds of millions of parents and 
caregivers through Ready To Learn and Ready To Teach. We have 
prepared children for school achievement and we have prepared 
teachers to use the latest technology to meet today and 
tomorrow's learners.

                           PREPARED STATEMENT

    With your support, we will continue to build on this 
foundation of trust and use all the new technologies to deliver 
even more public service.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The statement follows:]

                   Prepared Statement of Pat Mitchell

    Mr. Chairman, members of the Subcommittee: I welcome this 
opportunity to be a witness on behalf of the Public Broadcasting 
Service, this country's largest public service media enterprise, which 
is also this country's most trusted national institution, according to 
a recent Roper Poll.
    Public media must have the public's trust. Trust is our ratings 
system. Our currency. Our measure of achievement.
    And like public education, public health programs, and public 
libraries, public broadcasting is supported by public funds--another 
reason why it is essential to be sure that we have earned the public's 
trust.
    I am pleased to share that Americans have said in independent 
surveys that public television is the best value for their tax dollars, 
second only to military defense. This may surprise some, just as many 
are surprised to learn that the amount of those tax dollars is about 
one tax dollar per citizen per year, totaling less than 20 percent of 
the costs of operating public radio and television stations in 
communities across the country.
    This investment of public funds is the foundation upon which public 
broadcasting has built a national/local, public/private partnership 
that is unique in the world, and it is crucial that we maintain that 
foundation. Therefore, we are asking this committee to fund $430 
million to the Corporation for Public Broadcasting for fiscal year 2008 
to support local stations' operations and public broadcasting 
programming.
    Only in America with our strong philanthropic culture would a media 
enterprise such as PBS meet its mission year after year by leveraging 
every tax dollar with three or four private dollars from foundations, 
corporations, and yes, viewers like you, voluntarily adding their 
personal dollars to ensure that the programs and services of public 
broadcasting continue in their communities.
    Those viewers come from every sector of our communities, closely 
aligned in age, ethnicity, education and income with the overall 
demographic picture of this country. It is a committed constituency who 
believes--as Congress has historically indicated through its 
appropriations votes--that in a media landscape of hundreds of media 
businesses with fewer and fewer owners, with more choices than ever but 
fewer real options, that this country needs, perhaps more than ever, 
one media enterprise that resists the race to the bottom for profits 
and popularity, that respects the intelligence of its audience and 
responds to the need for programs that reflect our values and both 
celebrate and document the best of our history and culture.
    We need one media enterprise, as originally conceived over 35 years 
ago, that is not using its power to sell, cannot be bought or 
influenced and that truly does belong to all of the American people. It 
is those people's voices that have been heard in these halls and around 
the country to protect a service that is open to voices from every 
perspective, that tackles the tough, complex issues they want and need 
to understand, that puts them on the frontlines of the news and in the 
front rows of the theatre and that teaches their children letters and 
numbers as well as respect and other pro-social behavior.
    Those are the ``viewers like you'' who never ask the question, 
``Who needs PBS in today's media landscape?'' And yes, among them, are 
the often forgotten 40 million Americans who cannot afford or do not 
choose the options of cable or satellite. For them and for most rural 
communities, the funds to support a new interconnection system are 
critical to the sustainability of the national public broadcasting 
service that connects all 348 member stations to PBS and to each other.
    Because of their unique national/local structure, PBS and its 
member stations also offer a unique and important means of 
communicating during a crisis. Trials are under way to determine how 
best to serve first responders and how to ensure communities get what 
they need in times of disaster. The interconnection system must be 
updated to fully optimize this additional service for Americans.
    Therefore, we are asking that this committee fund the $40 million 
needed to build out the interconnection system so that we can ensure 
the universal reach that is our mandate and the delivery of national 
and local programs that serve our mission.
    ``Serve'' is the operative word because PBS and its 348 member 
stations have a mission to serve, not to sell, to inform and engage 
citizens, not to motivate them as consumers.
    This is a distinction with a big difference and the difference can 
be measured by results. I'd like to share a few of them with you today.
    The most obvious and most celebrated are the programs, consistently 
among the most honored for educational value, excellence in quality and 
journalistic standards, and--even in the midst of 300 media choices--
still among the top choices every week in most households and still 
viewed by nearly 70 percent of American households. In addition, PBS 
was chosen again this year as the number one television and video 
resource for classrooms by teachers across the country.
    Those who question whether there is still a need for PBS when there 
are so many other choices need to take a closer look at those other 
choices. I think you would agree that ``Monster Garage'' is not really 
a substitute for ``Masterpiece Theatre.'' And while distracting and 
amusing, ``Dancing with the Stars'' will not have the long lasting 
value of PBS' series on Broadway, a Ken Burn's history of jazz or 
baseball or the upcoming World War II program.
    At PBS, we do not begin with questions like, Will this program sell 
a product? We begin with questions like, What's the educational value 
of the content? How can teachers use it? Will it have lasting value to 
learners of all ages? Is it comprehensive, well researched? Does it 
contribute to a diversity of perspectives on the subject? Does it add 
to the understanding of our community, our country and our world? Will 
it open a mind, change a life, strengthen a family, teach a skill, 
connect a community? Will it comply with PBS's editorial standards for 
reliability, transparency, objectivity and balance?
    PBS recently updated its editorial standards with the help of a 
blue ribbon panel of journalism experts and also created the position 
of PBS ombudsman to ensure both transparency and responsiveness to the 
public. A search is under way to fill that new role.
    Every year, PBS distributes almost 3000 hours of programs that meet 
our high standards:
  --Children's programs that teach the concepts of literacy and math, 
        which foster respect and pro-social behavior, which get our 
        youngest and most disadvantaged ready to learn and prepared for 
        school.
  --Science and history programs that set the standard for accuracy and 
        comprehensiveness and are, along with the rest of our 
        programming, the most used TV and video curricula in American 
        schools.
  --Drama and performance programs that celebrate our country's great 
        cultural diversity and inspire the artists, the dancers, the 
        writers and musicians of tomorrow.
  --News and investigative journalism programs that Americans turn to 
        for an understanding of the complex issues of our times.
    And this is just the tip of the iceberg.
    Many of these programs and additional educational content go to 
PBS.org, which learners of all ages visit more than one million times a 
day to view 175,000 pages of content--web sites that extend the value 
of PBS and that link users seamlessly to their local PBS station web 
sites for local information, programs and educational services. 
Teachers across the country use nearly 4,000 highly credible, freely 
available lesson plans and study guides based on PBS content in their 
classrooms, all customized to national and state curriculum standards.
    Beyond broadcast and the Internet are the extensive and diverse 
outreach activities that engage PBS and stations in additional 
community service for which our content is perfectly suited: Through a 
Department of Education grant, Ready To Teach, our PBS TeacherLine 
service has been training teachers in reading, math, science, 
curriculum & instruction and technology integration. Everywhere I go 
around this country, teachers express appreciation for this 
professional development training, which is available through online 
courses, videoconferencing and face-to-face workshops, and for the 
state-of-the art digital technology PBS and its member stations are 
deploying to America's classrooms and school systems. The committee's 
support of these programs is essential, and we are requesting that this 
committee fund $17 million to enable PBS and its member stations to 
continue providing this critical service.
    In addition to providing teachers with access to training, PBS and 
its stations are meeting another community need, offering training to 
workers who have faced layoffs or hold jobs in industries in 
transition. KET, a statewide network of PBS member stations in 
Kentucky, is addressing the need to keep Americans fully engaged in the 
economic lives of their communities by offering through PBS 
distribution and to other stations a program that teaches workplace 
skills.
    Together with stations and partnerships with institutions of 
learning, PBS also offers video curriculum and materials for Americans 
seeking to complete their high school education and take college 
classes. More than 2 million Americans have received their GED 
certificates through PBS programs, and PBS and its local stations have 
helped more than 6 million adults earn college credit using PBS 
courses.
    When he signed the law creating public broadcasting in 1967, 
President Johnson said we should ``use the miracles of communication to 
create the miracles of learning.'' PBS and its member stations are 
doing this every day in every community, making us the single largest 
educational institution in the country.
    Education is a significant part of what we do, and the return on 
investment of tax dollars can be measured in the number of children 
better prepared to read and to succeed in school and in the number of 
Americans in every community who are being informed and educated 
through public service media.
    Traveling the country as the president and CEO of PBS, I have seen 
these results up close and personal.
    In rural Pennsylvania, I spoke with a young woman who thanked me 
for her high school diploma and the college degree she expects to earn 
through her PBS station.
    I have met teachers in Iowa who use our videos and DVDs who look to 
us to train all teachers in the best uses of technology.
    I have visited kindergartens and have seen caregivers in 
Mississippi, some with few educational resources, put in a DVD of our 
PBS KIDS program ``Between the Lions'' and I have watched the joy on 
children's faces when they used that program to connect the letters to 
a word they're learning.
    I have been in homes in Texas where there were no books until our 
Ready To Learn program provided books for the children learning to read 
and taught the parents how to support literacy in the home.
    And I have talked with hundreds of homeschoolers for whom PBS 
content comprise their core curriculum.
    Education is our mission and we need your support to ensure that we 
can sustain this service, particularly through Ready To Learn, for 
which we are asking this committee to fund $32 million for programs and 
community outreach. Developed in cooperation with the Department of 
Education, Ready To Learn has helped nearly one million parents and 
teachers prepare eight million children for success in school using 
local public television stations as outreach partners.
    We are working to strengthen our educational offerings in the 
future through an effort called the Digital Future Initiative (DFI), 
led by former Netscape Chairman Jim Barksdale and former FCC Chair Reed 
Hundt. The panel, made up of experts from inside and outside public 
broadcasting, is examining the future of learning and technology, and 
analyzing where PBS and its member stations fit into that future.
    The DFI will recommend new services we can deploy in the digital 
future for learners of all ages, but nothing will be possible without 
current funding, which we hope you will support. With that, we will 
solicit new partners who share our education mission, once again 
leveraging the private funds to make the public funds go even further.
    With your help in securing the foundation of public funds--the all-
important investment of public dollars--PBS and its member stations are 
the best positioned media enterprise to succeed in the digital future--
in fact, to lead it. Eighty-nine percent of our stations have converted 
at least their transmission facilities, but some remain in need and 
cannot be left behind. We are asking this committee for $45 million to 
help stations fund the conversion to digital broadcast technology.
    For PBS and for those stations that have converted, the transition 
to digital means a transition to a new way of serving the American 
people by deploying our already considerable offerings across platforms 
that respond to our audience's needs in this media landscape. And that 
is what this is all about. Harnessing the current power of media--
unprecedented in its capability to do good--on behalf of the American 
people.
    In a media landscape transformed by technology, consolidating in 
ownership and power, this country needs one media enterprise:
    --where education comes first;
  --where partisanship is checked at the newsroom door;
  --where editorial guidelines ensure that all content produced for us 
        is fair, transparent in the process and accurate. We have 
        recently updated our editorial guidelines to ensure that we 
        continue to achieve these goals at every level.
    In a media landscape where fewer and fewer Americans trust the 
press, we maintain our high level of trust because the public believes 
that we are independent of pressures that come from the marketplace and 
the influence of any funding source.
    And in a media environment where our children are spending 4 to 6 
hours a day interacting and engaged with media of some sort, we offer a 
media experience that is committed to the values of family and the 
values of this democracy.
    We are this country's only media enterprise that invests public 
funds in a public-private partnership through a strong national program 
service and an interconnected community of locally owned media 
institutions, public radio and public television stations. And we are 
this country's only media enterprise that delivers programs and 
services that meet community needs and that measures our value and 
relevancy by how many minds we open, how many lives we change, how many 
ways we strengthen communities and how well we serve this democracy.

    Senator Specter. Thank you. Thank you very much, Ms. 
Mitchell.
    Our next witness is Mr. John Lawson, President and CEO of 
the Association of Public Television Stations. He served on the 
board of the National Coalition for Technology in Education and 
Training, was appointed to the Federal Communications 
Commission's Media Security and Reliability Council in 2002, a 
graduate of the University of South Carolina.
    Thank you for coming in this morning, Mr. Lawson, and the 
floor is yours.

STATEMENT OF JOHN M. LAWSON, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, ASSOCIATION OF PUBLIC 
            TELEVISION STATIONS
    Mr. Lawson. Thank you, Mr. Chairman and Senator Inouye. 
Thanks for inviting me to testify on behalf of America's 356 
local public training stations. In an era of media 
consolidation, our stations are among the last of the locally 
controlled media and that fact alone makes them vital to our 
democratic society.
    With all that has been said and written about public 
broadcasting, especially over the past few weeks, my concern is 
that we not lose sight of who we really are and, more to the 
point, who we really serve. It is not the media, it is not the 
pundits, and it is not us here in this room. It is viewers and 
listeners who turn to public TV and radio as their most trusted 
source for news and public affairs. It is children, whose 
public education is improved by programs in reading, math, and 
science. It is parents, who depend on public television for 
home schooling and for family-friendly and non-violent 
programming. And it is people living in Russell, Kansas, and 
Cumming, Iowa, Hooper Bay, Alaska, and other rural communities 
who depend on public TV and radio as information lifelines.
    Senator Specter. Why special concern about Russell, Kansas?
    Mr. Lawson. I understand that is where you were born, sir.
    Senator Specter. Close. Bob Dole was born there. I was born 
in Wichita, moved there when I was 12.
    Mr. Lawson. Okay, where you grew up.
    Senator Specter. Glad to have Russell included. You can 
have some extra time for mentioning that.
    Mr. Lawson. I will take it.
    So these are the real people, Senator, that public 
broadcasting serves. But make no mistake, our viewers challenge 
us and we challenge ourselves to keep pace with a changing 
society. With the support of this subcommittee, we are 
converting to digital, DTV. In practical terms, that means 
that, instead of broadcasting a single program, stations can 
reach nontraditional learners, kids, the elderly, Spanish 
speakers, and rural Americans with multiple news services 
simultaneously.
    I am also pleased to report that the Department of Homeland 
Security has turned to our stations as the backbone for 
upgrading the Cold War-era emergency alert system and 
overcoming the communications bottlenecks we saw on 9-11 both 
here and in New York City.
    Mr. Chairman, just over 2 weeks ago the House of 
Representatives voted by a two to one margin to restore $100 
million that the House Appropriations Subcommittee cut from 
CPB. While we are grateful for that bipartisan vote of 
confidence, funding for four critically important programs 
still was completely eliminated in the House bill. Tomorrow 
this subcommittee will take on the different task of allocating 
scarce resources.
    So please let me summarize what our stations believe is 
needed to continue serving their communities. First and 
foremost, CPB funding is irreplaceable for our stations. It is 
the foundation. It is the seed money on which all the other 
money we raise stands.
    Also very important is the longstanding practice of this 
subcommittee to provide these funds 2 years in advance. This 
allows for good planning, provides a buffer from politics, and 
does not cost the Federal Government any more than a current 
year appropriation.
    For CPB, we urge you to appropriate $430 million for fiscal 
year 2008, an increase of $30 million over what was 
appropriated last year and the year before. These additional 
funds are needed, among other reasons, because stations are 
required to transmit both analog and digital signals and added 
cost for electricity alone is $30 million per year.

                 NEXT GENERATION INTERCONNECTION SYSTEM

    Two years ago, this subcommittee recognized that our 
current satellite system is wearing out. We have planned a 4-
year phase-in of a new system that will allow local stations, 
wherever they are, to share programming with one another across 
their State and across the country. For this year's installment 
we are requesting level funding, $40 million.

                      CPB DIGITAL TRANSITION FUNDS

    This is another temporary line item. Next year the FCC 
requires stations to deliver full power digital signals and 
have their final DTV channel allocations in place. To help 
stations meet these Federal mandates and complete their digital 
buildup, we are requesting $45 million. This augments State and 
private funding.

                     READY TO LEARN, READY TO TEACH

    If I can characterize CPB funds as the foundation for our 
stations, I would describe these programs as the crown jewels. 
Ready to Learn provides educational programming for tens of 
millions of American children and its outreach component has 
helped to further prepare eight million children to enter 
school. Ready to Teach uses technology to help train teachers 
in core subjects and provides grants to stations to create 
world-class curriculum content. We are requesting $32 million 
for Ready to Learn and $17 million for Ready to Teach.

                           PREPARED STATEMENT

    In conclusion, Mr. Chairman, Senator Inouye, you and 
ranking member Harkin and Chairman Cochran and Stevens and your 
colleagues on this subcommittee have provided steadfast support 
for public broadcasting. Through good times and bad, you have 
made it possible for public stations to serve uniquely their 
local communities. We are deeply grateful for your lifetime 
support.
    Thank you.
    [The statement follows:]

                  Prepared Statement of John M. Lawson

    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to testify on behalf of our members--representing the 356 
local public television stations across the nation. In an era of 
mergers and acquisitions, our stations are among the last of the 
locally-controlled media and, in that regard, perhaps best reflect one 
of the central tenets of our democratic society.
    With all that's been said and written about public broadcasting, 
especially over the past several weeks, my concern is that we not 
become distracted from our core issues. More to the point, I think it's 
important that we not lose sight of who we serve.
    It's not the media. It's not the pundits. And it's not really us in 
Washington.
  --It's the viewers and listeners who turn to public TV and radio as 
        their most trusted source for news and public affairs.
  --It's the children whose public education is improved by programs in 
        reading, math and science.
  --It's the parents who depend on public television for home-
        schooling, and who want to be assured that what their children 
        watch on TV is family-friendly and non-violent.
  --And it's the people living in Russell, Kansas, Cumming, Iowa, 
        Tunica, Mississippi, Hoppers Bay, Alaska and other rural 
        communities, who depend on public TV and radio as a lifeline 
        for news and weather alerts.
    These are the real people public broadcasting serves.

                            THE DIGITAL AGE

    But make no mistake. We are not resting on our laurels. Our viewers 
challenge us--and we challenge ourselves--to keep pace with a changing 
society.
    With the support of this subcommittee, we are converting to digital 
television broadcasting [DTV]. In practical terms, this means that 
instead of transmitting a single program over the airwaves, stations 
can now broadcast a wide range of new services, including standards-
based education, all-day channels for kids, and expanded public affairs 
and local programming, simultaneously. DTV means we can reach non 
traditional learners, the elderly, Spanish language speakers and Rural 
Americans as never before.
    I'm also pleased to report that the Department of Homeland Security 
has turned to our stations for help with upgrading the aging Emergency 
Alert System [EAS]--using our digital signals to overcome the 
communications bottlenecks we saw on 9/11, both here and in New York 
City.
    Last year, in fact, my association and DHS signed a cooperative 
agreement to begin a pilot project in the National Capital Region to 
demonstrate the capabilities of public television's infrastructure to 
support the distribution of digital EAS messages. The goal was to prove 
that we could distribute digital EAS messages (such as audio, video, 
and/or data messages) wirelessly to any number of communications 
devices: TVs, radios, PCs, cell phones, pagers and wireless networks.
    The pilot has been a success, and I am gratified to make an 
important announcement today. Building upon the success of this pilot 
project here in the National Capital Region, DHS has signed a new 
cooperative agreement with APTS to plan the national roll-out of the 
Digital Emergency Alert System. We will use the PBS satellite system 
and the local public television stations as the backbone for this 
significantly upgraded public warning system.

                              HOUSE ACTION

    Just over two weeks ago, the House of Representatives voted--by a 2 
to 1 margin--to restore $100 million cut from the Corporation for 
Public Broadcasting by the House Appropriations Committee. While we are 
grateful for that bipartisan vote of confidence, unfortunately, the 
House bill still fails to fund four critically important programs: next 
generation interconnection, digital conversion, ready to learn and 
ready to teach. In other words, the bill sent by the House to the 
Senate falls more than $103 million short of what is required to 
sustain public broadcasting's mission in the 21st century.
    Moreover, we believe the House cuts presented a great fiscal 
contradiction. On the one hand, two authorizing committees--Budget and 
Commerce--have made the digital conversion of the television industry a 
major priority. This is because the Federal Government can recover and 
auction off the nation's analog television spectrum for billions of 
dollars in new revenue, without raising taxes. Some of these channels 
have already been promised to public safety. On the other hand, this 
will occur only when consumers all make the switch and broadcasters 
cease analog transmission.
    Public television has clearly led the broadcasting industry in 
driving the digital conversion. Yet the House cuts would severely 
damage our digital transition at precisely the moment in history when 
Public Television is doing the most to make the auctions feasible by a 
date certain. In purely financial terms, cuts to public television are 
penny-wise and pound foolish.
    Tomorrow, this subcommittee will take on the difficult task of 
allocating scarce resources across a range of important programs. So, 
if I may, I'd like to briefly review what our local stations believe is 
needed to continue serving their communities.

                          CPB ADVANCE FUNDING

    First and foremost, the Corporation for Public Broadcasting is the 
lifeblood of funding for our stations. Federal funding is the 
foundation, the seed money on which we raise all other money.
    As you know, there has been a long-standing practice of providing 
CPB funds two years in advance, so that stations can more effectively 
plan and manage their operations, as well as leverage non-Federal 
funds. Doing so does not cost the Federal Government any more than a 
current-year appropriation would.
    For CPB, we ask that no funds previously appropriated for fiscal 
year 2006 be rescinded. We suggest that the outpouring of popular 
support for public broadcasting that compelled the full House to 
restore a $100 million cut by the House Appropriations Committee is the 
clearest expression of opposition to any rescission.
    We further urge you to appropriate $430 million for fiscal year 
2008, an increase of $30 million over what was appropriated last year. 
This represents an annualized increase over two years of three and 
three-quarters percent. These additional funds are needed because 
stations are required to transmit both analog and digital signals. Just 
the added cost for electricity amounts to $30 million--annually.

                 NEXT GENERATION INTERCONNECTION SYSTEM

    Two years ago, this subcommittee recognized that our current 
satellite interconnection system is wearing out and badly in need of 
replacement. We set out a four-year phase-in of a new system that will 
allow local stations--wherever they are--to share programming with one 
another, across their state, and across the country.
    For this year's installment, we are requesting level funding--$40 
million.
    We call this system the Next Generation Interconnection System, or 
NGIS. Like its predecessors, NGIS will serve as a distribution system 
linking PBS to local stations. Yet this time, stations will be equipped 
with servers that will store programming, digitally, to be aired--or 
shared--at the station's discretion.
    In engineering-speak, NGIS will give public broadcasters station-
to-station connectivity, on demand. Let me give you an example of what 
that capability means in the real world.
    Let's assume that WHYY in Philadelphia has produced a program on 
the history and preservation of the Liberty Bell. In the NGIS world, 
WHYY will be able to distribute the program to any station in the 
country that wants it with the ease of a few clicks of a mouse. But 
that's just the beginning. Perhaps a station in say, Bethel, Alaska, is 
working with their local school district to put together some multi-
media history content. A station employee in Alaska gets online to 
search public television archives and, lo and behold, not only finds 
what WHYY has produced on the Liberty Bell, but can choose just a small 
segment of that program--whatever works best for them. Think of this 
station-to-station sharing feature as connecting hundreds of local 
digital libraries that house local content.

                              CPB DIGITAL

    Next year, the Federal Government requires that public television 
stations deliver a full digital signal to their entire viewing area, 
and that the final digital channel selection for stations be in place. 
To help meet these Federal mandates, we are requesting $45 million to 
help stations complete their digital build-out. This augments the DTV 
conversion funds that have come from State governments and private 
fundraising. With funding for fiscal year 2006, our request will ramp 
down to zero over the next few years. Without this funding, rural and 
smaller public television stations are at real risk of going dark when 
the digital clock strikes 12:00.

                     READY TO LEARN/READY TO TEACH

    If I can characterize CPB as the lifeblood of our stations, I would 
describe the Ready To Learn and Ready To Teach programs as the crown 
jewel in public broadcasting. These programs are what the term 
``educational'' in our governing statute are all about.
    Ready To Learn provides educational programming for tens of 
millions of American children, including Between the Lions, 
DragonTales, Clifford, and Sesame Street. The unique national-local 
partnership between PBS and local stations supports both the 
development and distribution of educational programming and the 
extension of this programming into the community, using specially 
developed curriculum and community outreach activities. The Ready To 
Learn service is designed to build partnerships with local community 
organizations such as childcare centers, schools, libraries, 
businesses, civic groups, and government agencies facilitated through 
local public television stations.
    Through this extensive national-local partnership, approximately 
eight million children have benefited from the outreach component of 
the program, better prepared to enter school ready to succeed. This 
year, Public Television is requesting $32 million in fiscal year 2006 
to expand the reach and programming supported by Ready To Learn.
    Ready To Teach uses technology to help train elementary and 
secondary school teachers in core curriculum subjects. It is a teacher 
professional development program that joins the power of multimedia 
content with facilitated training modules in conjunction with local 
accredited higher ed institutions. To date, the 80 Ready To Teach 
stations have reached tens of thousands of teachers. Ready To Teach 
continues to grow in terms of both station and teacher participation; 
thus for fiscal year 2006, we request $17 million to continue this 
effective program.
    In conclusion, Mr. Chairman, I want to thank you, Senator Cochran, 
Senator Stevens, Senator Harkin, and your colleagues on this 
subcommittee for your unswerving support of public broadcasting. Time 
and again--through good times and bad--you have made it possible for 
public television and radio to fulfill their role to the local 
communities they serve. Thank you.

    Senator Specter. Thank you very much, Mr. Lawson.
    The final witness on this panel is Mr. David Boaz, 
Executive Vice President of the Cato Institute. Prior to 
joining Cato in 1981, he was Executive Director of the Council 
for a Competitive Economy. He has played a key role in the 
development of the Cato Institute and the libertarian movement, 
a graduate of Vanderbilt University.
    We appreciate your coming in this morning, Mr. Boaz, and we 
look forward to your testimony.

STATEMENT OF DAVID BOAZ, EXECUTIVE VICE PRESIDENT, CATO 
            INSTITUTE
    Mr. Boaz. Thank you, Mr. Chairman. Mr. Chairman and Senator 
Inouye. Thank you for the opportunity to provide a little 
diversity on this table and to explain why I think taxpayer 
funding for the Corporation of Public Broadcasting should be 
eliminated. I will touch briefly on several arguments in my 
oral discussion and I will save the most important for last.
    First, we have a $400 billion deficit and Congress and the 
Appropriations Committees should be looking for opportunities 
to cut nonessential spending. In a world of 500 channels and 
the World Wide Web, government-funded radio and training 
networks are nonessential.
    Second, public broadcasting is welfare for the rich. In 
their public defenses, officials of CPB wax eloquent about 
bringing ``Sesame Street'' and Shakespeare to poor and isolated 
children. In talking to their advertisers, however, they are 
more candid. The audiences for PBS and NPR are the best 
educated, most professional, and richest audiences in 
broadcasting. Their cultural programming reflects elite tastes 
and I like a lot of it myself. But I think that we upper middle 
class people should pay for our own art and entertainment.
    Third, NPR and PBS can survive privatization. As they often 
remind us, they get only 15 percent of their revenue from the 
Federal Government. Mr. Chairman, families and businesses in 
Pennsylvania often deal with 15 percent losses in their income. 
It is not fun, but they do it. The $2.5 billion public 
broadcasting complex can survive and prosper without Federal 
tax dollars.
    Fourth, in news and public affairs programming, bias is 
inevitable. Any reporter or editor has to choose what is 
important. It is impossible to make such decisions without a 
framework, a perspective, a view of how the world works. A 
careful listener to NPR would notice a preponderance of reports 
on racism, sexism, and environmental destruction, reflecting a 
particular perspective on what is most important in our world. 
David Fanning, the executive producer of PBS's ``Front Line,'' 
responds to questions of bias by saying: ``We ask hard 
questions to people in power. That is anathema to some people 
in Washington these days,'' unquote. But there has never been a 
``Front Line'' documentary on the burden of taxes of the number 
of people who have died because Federal regulations keep drugs 
off the market, or the way that State governments have abused 
the rule of law in their pursuit of tobacco companies, or the 
number of people who use guns to prevent crime. Those hard 
questions just do not occur to liberal journalists.
    Anyone who got all his news from NPR would never know that 
Americans of all races live longer, healthier, and in more 
comfort than ever before in history or that the environment has 
been getting steadily cleaner.
    That brings me to my major concern. We would not want the 
Federal Government to publish a national newspaper. Neither 
should we have a government television network and a government 
radio network. If anything should be kept separate from 
government and politics, it is the news and public affairs 
programming that informs Americans about government and its 
policies. When government brings us the news, with all the 
inevitable bias and spin, the government is putting its thumb 
on the scales of democracy.
    Journalists should not work for the Government. Journalists 
should not have officials of the Government looking over their 
shoulders. And taxpayers should not be forced to subsidize news 
and public affairs programming.
    Therefore I urge you, not merely to reduce, but to 
eliminate taxpayer funding for public broadcasting. Now, even 
if this committee comes to my conclusion that taxpayer funding 
for radio and television networks is imprudent and 
constitutionally unfounded, I recognize that you may hesitate 
to withdraw a funding stream that stations count on. Even 
though Federal funding is only about 15 percent of public 
broadcasting revenues, you might choose to phase out the 
funding, perhaps on a 5-year schedule.

                           PREPARED STATEMENT

    The total funding request for this year is about $500 
million. Congress could reduce it by $100 million a year, 
leaving the CPB entirely free of taxpayer funding and of 
Federal intervention in what journalists do at the end of 5 
years.
    Thank you for your attention, Senators.
    [The statement follows:]

                    Prepared Statement of David Boaz

    Thank you for the opportunity to testify on taxpayer funding for 
the Corporation for Public Broadcasting and by extension for National 
Public Radio and the Public Broadcasting System. I shall argue that 
Americans should not be taxed to fund a national broadcast network and 
that Congress should therefore terminate the funding for CPB.
    We wouldn't want the Federal Government to publish a national 
newspaper. Neither should we have a government television network and a 
Government radio network. If anything should be kept separate from 
Government and politics, it's the news and public affairs programming 
that informs Americans about Government and its policies. When 
Government brings us the news--with all the inevitable bias and spin--
the Government is putting its thumb on the scales of democracy. 
Journalists should not work for the Government. Taxpayers should not be 
forced to subsidize news and public-affairs programming.
    Much of the recent debate about tax-funded broadcasting has 
centered on whether there is a bias, specifically a liberal bias, at 
NPR and PBS. I would argue that bias is inevitable. Any reporter or 
editor has to choose what's important. It's impossible to make such 
decisions without a framework, a perspective, a view of how the world 
works.
     As a libertarian, I have an outsider's perspective on both liberal 
and conservative bias. And I'm sympathetic to some of public 
broadcasting's biases, such as its tilt toward gay rights, freedom of 
expression, and social tolerance and its deep skepticism toward the 
religious right. And I share many of the cultural preferences of its 
programmers and audience, for theater, independent cinema, history, and 
the like. The problem is not so much a particular bias as the existence 
of any bias.
    Many people have denied the existence of a liberal bias at NPR and 
PBS. Of course, the most effective bias is one that most listeners or 
viewers don't perceive. That can be the subtle use of adjectives or 
frameworks--for instance, a report that ``Congress has failed to pass a 
health care bill'' clearly leaves the impression that a health care 
bill is a good thing, and Congress has ``failed'' a test. Compare that 
to language like ``Congress turned back a Republican effort to cut 
taxes for the wealthy.'' There the listener is clearly being told that 
something bad almost happened, but Congress ``turned back'' the threat.
    A careful listener to NPR would notice a preponderance of reports 
on racism, sexism, and environmental destruction. David Fanning, 
executive producer of ``Frontline,'' PBS's documentary series, responds 
to questions of bias by saying, ``We ask hard questions to people in 
power. That's anathema to some people in Washington these days.'' But 
there has never been a ``Frontline'' documentary on the burden of 
taxes, or the number of people who have died because federal 
regulations keep drugs off the market, or the way that state 
governments have abused the law in their pursuit of tobacco companies, 
or the number of people who use guns to prevent crime. Those ``hard 
questions'' just don't occur to liberal journalists.
    Anyone who got all his news from NPR would never know that 
Americans of all races live longer, healthier, and in more comfort than 
ever before in history, or that the environment has been getting 
steadily cleaner.
    In Washington, I have the luxury of choosing from two NPR stations. 
On Wednesday evening, June 29, a Robert Reich commentary came on. I 
switched to the other station, which was broadcasting a Daniel Schorr 
commentary. That's not just liberal bias, it's a liberal roadblock.
    In the past few weeks, as this issue has been debated, I've noted 
other examples. A common practice is labeling conservatives but not 
liberals in news stories--that is, listeners are warned that the 
conservative guests have a political agenda but are not told that the 
other guests are liberals. Take a story on the Supreme Court that 
identified legal scholar Bruce Fein correctly as a conservative but did 
not label liberal scholars Pamela Karlan and Akhil Amar. Or take the 
long and glowing reviews of two leftist agitprop plays, one written by 
Robert Reich and performed on Cape Cod and another written by David 
Hare and performed in Los Angeles. I think we can be confident that if 
a Reagan Cabinet official wrote a play about how stupid and evil 
liberals are--the mirror image of Reich's play--it would not be 
celebrated on NPR. And then there was the effusive report on Pete 
Seeger, the folksinger who was a member of the Communist Party, 
complete with a two-hour online concert, to launch the Fourth of July 
weekend.
    And if there were any doubt about the political spin of NPR and 
PBS, it was surely ended when a congressional subcommittee voted to cut 
the funding for CPB. Who swung into action? Moveon.org, Common Cause, 
and various left-wing media pressure groups. They made ``defending 
PBS'' the top items on their websites, they sent out millions of 
emails, they appeared on radio and television shows in order to defend 
an effective delivery system for liberal ideas. Public broadcasters 
worked hand in glove with those groups, for instance linking from the 
NPR website to those groups' sites.
    There are many complaints today about political interference in 
CPB, PBS, and NPR. I am sympathetic to those complaints. No journalist 
wants political appointees looking over his shoulder. But political 
interference is entirely a consequence of political funding. As long as 
the taxpayers fund something, their representatives have the authority 
to investigate how the taxpayers' money is being spent. Recall the 
criticism directed at PBS in 1994 for broadcasting Tales of the City, 
which has gay characters. Because of the political pressure, PBS 
decided not to produce the sequel, More Tales of the City. It appeared 
on Showtime and generated little political controversy because Showtime 
isn't funded with tax dollars. Remove the tax funding, and NPR and PBS 
would be free from political interference, free to be as daring and 
innovative and provocative as they like.
    One dirty little secret that NPR and PBS don't like to acknowledge 
in public debate is the wealth of their listeners and viewers. But 
they're happy to tell their advertisers about the affluent audience 
they're reaching. In 1999 NPR commissioned Mediamark Research to study 
its listeners. NPR then enthusiastically told advertisers that its 
listeners are 66 percent wealthier than the average American, three 
times as likely to be college graduates, and 150 percent more likely to 
be professionals or managers.
    But perhaps that was an unusual year? Mediamark's 2003 study found 
the same pattern. As NPR explained, based on the 2003 study:
    Public radio listeners are driven to learn more, to earn more, to 
spend more, and to be more involved in their communities. They are 
leaders and decision makers, both in the boardroom and in the town 
square. They are more likely to exert their influence on their 
communities in all types of ways--from voting to volunteering.
    Public radio listeners are dynamic--they do more. They are much 
more likely than the general public to travel to foreign nations, to 
attend concerts and arts events, and to exercise regularly. They are 
health conscious, and are less likely to have serious health problems. 
Their media usage patterns reflect their active lifestyles, they tend 
to favor portable media such as newspapers or radio.
    As consumers, they are more likely to have a taste for products 
that deliver on the promise of quality. Naturally, they tend to spend 
more on products and services.
    Specifically, the report found, compared with the general public, 
NPR listeners are
  --55 percent less likely to have a household income below $30,000
  --117 percent more likely to have a household income above $150,000
  --152 percent more likely to have a home valued at $500,000 or more
  --194 percent more likely to travel to France
  --326 percent more likely to read the New Yorker
  --125 percent more likely to own bonds
  --125 percent more likely to own a Volvo.
    PBS has similar demographics. PBS boasts that its viewers are:
  --60 percent more likely to have a household income above $75,000
  --139 percent more likely to have a graduate degree
  --98 percent more likely to be a CEO
  --132 percent likely to have a home valued at $500,000 or more
  --315 percent more likely to have stocks valued at $75,000 or more
  --278 percent more likely to have spent at least $6000 on a foreign 
        vacation in the past year.
    Tax-funded broadcasting is a giant income transfer upward: the 
middle class is taxed to pay for news and entertainment for the upper 
middle class. It's no accident that you hear ads for Remy Martin and 
``private banking services'' on NPR, not for Budweiser and free 
checking accounts.
    Defenders of the tax-funded broadcast networks often point out that 
only about 15 percent of their funding comes from the Federal 
Government. Indeed, NPR and PBS have been quite successful at raising 
money from foundations, members, and business enterprises. Given that, 
they could certainly absorb a 15 percent revenue loss. Businesses and 
nonprofit organizations often deal with larger revenue fluctuations 
than that. It isn't fun, but it happens. In a time of $400 billion 
deficits, Congress should be looking for nonessential spending that 
could be cut. Tax-funded broadcasting is no longer an infant industry; 
it's a healthy $2.5 billion enterprise that might well discover it 
liked being free of political control for a paltry 15 percent cut.
    Finally, I would note that the Constitution provides no authority 
for a Federal broadcasting system. Members of Congress once took 
seriously the constraints imposed on them by the Constitution. In 1794 
James Madison, the father of the Constitution, rose on the floor of the 
House and declared that he could not ``undertake to lay his finger on 
that article of the Federal Constitution which granted a right to 
Congress of expending, on objects of benevolence, the money of their 
constituents.'' In 1887, exactly 100 years after the Constitution was 
drafted, President Grover Cleveland made a similar point when he vetoed 
a bill to buy seeds for Texas farmers suffering from a drought, saying 
he could ``find no warrant for such an appropriation in the 
Constitution.'' Things had changed by 1935, when President Roosevelt 
wrote to Congress, ``I hope your committee will not permit doubts as to 
constitutionality, however reasonable, to block the suggested 
legislation.'' I suggest that this committee take note of the fact that 
no article of the Constitution authorizes a national broadcast network.
    Even if this committee comes to the conclusion that taxpayer 
funding for radio and television networks is imprudent and 
constitutionally unfounded, I recognize that you may hesitate to 
withdraw a funding stream that stations count on. In that regard, I 
would note again that federal funding is only about 15 percent of 
public broadcasting revenues. But you might also phase out the funding, 
perhaps on a 5-year schedule. The total funding request for this year 
is about $500 million. Congress might decide to reduce it by $100 
million a year, leaving the CPB entirely free of federal taxpayer 
funding at the end of 5 years.
    But Congress's resolve in such matters is not trusted. Recall the 
1996 Freedom to Farm Act, which likewise promised to phase out farm 
subsidies. Barely two years had passed when Congress began providing 
``emergency relief payments'' to make up for the scheduled reductions. 
This time, if Congress pledges to phase out broadcasting subsidies, it 
needs to make sure that its decision sticks.
    A healthy democracy needs a free and diverse press. Americans today 
have access to more sources of news and opinion than ever before. 
Deregulation has produced unprecedented diversity--more broadcast 
networks than before, cable networks, satellite television and radio, 
the Internet. If there was at some point a diversity argument for NPR 
and PBS, it is no longer valid. We do not need a government news and 
opinion network. More importantly, we should not require taxpayers to 
pay for broadcasting that will inevitably reflect a particular 
perspective on politics and culture. The marketplace of democracy 
should be a free market, in which the voices of citizens are heard, 
with no unfair advantage granted by Government to one participant.

    Senator Specter. Thank you very much, Mr. Boaz.
    We have been joined by Senator Durbin. Would you care, 
Senator Durbin, at this point to make an opening statement?
    Senator Durbin. I can put it in the record. I would just 
like to ask some questions.
    Senator Specter. Without objection, his statement will be 
put in the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Thank you, Mr. Chairman, for holding this hearing today. I want to 
welcome all the witnesses, and look forward to their testimony.
    Like millions of parents around the nation, I am a strong supporter 
of public broadcasting for all the great educational opportunities it 
provides to our children. Over one third of all public broadcasts aired 
on weekdays are dedicated to children's programming. More important 
than what children see on public television is what they don't see--
commercials about junk food and toys, interruptions throughout a 
program, violence, adult themes, and content simply not suitable for 
children.
    Public Broadcasting Service provides more than just a wide range of 
programs for children's learning. PBS also provides online learning 
games and activities for children, as well as resources--including 
workshops and free books--for parents, caregivers, and educators to 
further enhance the academic and pro-social skills-learning experience 
for the children. These high quality tools, many of which are developed 
jointly with the U.S. Department of Education, have been proven to help 
build our children's literacy and school-readiness skills.
    I am also a supporter of public broadcasting because of the value 
it adds to smaller towns and rural counties throughout Illinois and 
elsewhere. Sixty-five million Americans live in rural areas, yet many 
of these households do not have cable and broadband access. Free, over-
the-air, public educational television continues to be a critical asset 
to rural Americans.
    Thus, there is no question in my mind when it comes to fully 
funding the Corporation for Public Broadcasting and the other requests 
made by the public broadcasting community. It is a bargain to think 
that we can have such an abundance of quality programs for the entire 
year at the cost of a little more than $1 of public funding per person 
in America.
    Public funding is especially important for smaller or rural 
stations that depend on the federal funding as seed money to plan out 
their operations for the upcoming years. For these stations, the 
federal funds we provide each year make up a larger portion of their 
annual budget than stations in other parts of the country. But, unlike 
their counterparts in big cities, rural public stations simply do not 
have the fundraising bases--such as large pool of individual, 
corporate, and foundation donors--that could potentially replace any 
shortfall in federal funding.
    I look forward to working with the Chairman and the members of this 
subcommittee to ensure that every item asked for by our local stations 
can be met in our appropriations process this week and beyond.
    I also look forward to clearing the air today of several 
controversies surrounding recent activities at the Corporation for 
Public Broadcasting. I am very concerned to read in the press that 
there may be partisan political activities taking place at CPB, and I 
hope we will receive some straight answers to these lingering questions 
from representatives of CPB.
    Mr. Kenneth Tomlinson, who appears before us today as CPB's 
chairman of the board of directors, has been associated with many of 
these allegations. There are reports that he has made personnel 
decisions based on partisan or political factors and that he has 
influenced the content of programs that are aired on public 
broadcasting. These allegations rise to such a serious level that CPB's 
own inspector general has initiated an internal investigation.
    One episode is particularly troubling. According to press reports, 
Mr. Tomlinson paid an outside consultant over $14,000 of taxpayer funds 
to have him monitor certain public broadcast programs to determine the 
political ideology of guests who appear on these shows. The 
consultant's report is now in the public domain, and its conclusions 
are suspicious, at best. For example, according to Mr. Tomlinson's 
consultant, my Republican colleague, Senator Chuck Hagel, is a 
``liberal'' because he happened to disagree with some of President 
Bush's positions on a show that aired on public broadcast. The report 
is full of such ridiculous assertions.
    I have also read that Mr. Tomlinson personally advocated for the 
addition of a program to the PBS lineup hosted by editors of the Wall 
Street Journal's editorial page, in his self-described attempt to 
balance the perceived liberal bias of ``NOW'' with Bill Moyers. This 
comes at the same time when CPB is insisting on tying new funding for 
PBS to an agreement that PBS would commit to strict new standard of 
``objectivity and balance'' in its programs.
    Apparently, Mr. Tomlinson believes public broadcasting is too 
liberal, even though a series of focus groups and two national surveys 
conducted at CPB's own request concluded that the public perception is 
otherwise. Specifically, the survey of over 1,000 adults found that 
only 21 percent thought the Public Broadcasting Service had a liberal 
bias and 22 percent thought the National Public Radio had a liberal 
bias. The survey found that 12 percent thought PBS had a conservative 
bias and 9 percent thought the same of NPR. This means that two-thirds 
of those surveyed believed there was no apparent bias on PBS or NPR.
    Additionally, the survey conducted on CPB's behalf found that 80 
percent of respondents had a ``favorable'' opinion of public 
broadcasting, while only 10 percent had an ``unfavorable'' opinion. 
More than half of the respondents (55 percent) also said that PBS 
programming was ``fair and balanced,'' while NPR received an even 
higher approval rating of 79 percent.
    The internal survey results and the overwhelming support expressed 
by the public as evidenced by the recent vote in the House of 
Representatives to restore funding for public broadcast seem to 
indicate that perhaps Mr. Tomlinson should rethink what he believes is 
in the best interests of the consumers of public broadcasting.

    Senator Specter. Mr. Boaz, let us start with the question 
that you raised, that public broadcasting can survive without 
Federal funding. Ms. Mitchell, can public broadcasting survive 
without Federal funding, as Mr. Boaz suggests?
    Ms. Mitchell. Mr. Chairman, I would respectfully disagree 
with the principle of Mr. Boaz's arguments. It is a principle 
of this democracy that, while we have very successful private 
bookstores, we still invest in private--in public libraries. 
And we have private schools, but we invest in public schools.
    This Congress saw the benefit of setting aside public 
spectrum for public service broadcasting and that is, it seems 
to me, a great use of public funds, using the power of media to 
inform and engage citizens so that the great work of this 
democracy might go forward.
    Senator Specter. Ms. Mitchell, I am not quite sure of your 
answer. Can public broadcasting survive without Federal 
funding?
    Ms. Mitchell. The taxpayer dollars, Mr. Chairman, are 
leveraged with private money. So that 15 percent is a hugely 
important critical foundation for not only the station 
services, because most of the money, as Ms. Harrison 
represented, goes directly to the stations, and there they 
leverage from the 15 or 20 percent of their budget that is 
provided by appropriations, they leverage all of this private 
investment from foundations, corporations, and, yes, viewers 
like you, who still voluntarily support at a level that is the 
largest single percentage.
    Senator Specter. Mr. Lawson, the point is made by Mr. Boaz 
that there ought not to be a national newspaper and analogizes 
that to public broadcasting. Let me ask you a two-part 
question. Would you agree that there ought not to be a national 
newspaper, part one? And part two, does public broadcasting--
and I am going to give Mr. Boaz a chance to respond to this, 
too--come anywhere in the range of constituting what would be a 
national media organ?
    Mr. Lawson. No, sir, I do not think there should be a 
national newspaper and I do not think public broadcasting in 
any way constitutes a national media organ. As I said in my 
statement, we are the last of the locally controlled media. 
That is a characteristic of American public broadcasting that 
is different from any other country. We are not the BBC, we are 
not NHK, we are not centrally managed. It is about local 
control.
    I can tell you, if the 15 percent went away, first you 
would see stations serving rural America go dark. Secondly, 
even for the big market stations there would be so much 
pressure on them to replace that money. The Federal money is 
the foundation, it is the seed money. All the other money we 
raise is based on that, and you would see enormous pressure on 
even the largest stations to become more commercial.
    So localism is the key to public broadcasting in the United 
States.
    Senator Specter. Mr. Boaz, you raise a very fundamental 
point here on the kinds of programming and have identified a 
series of subjects which you note that the ``Front Line'' 
documentary has never addressed, such as burden of taxes or the 
regulatory system or pursuit of private companies. Has ``Front 
Line'' or other similar programs on public broadcasting 
addressed any of the issues which you think would provide 
balance on the kind of hard questions which ought to be asked?
    Mr. Boaz. I am sure that no program has been completely 
unbalanced. But I am not aware of ``Front Line''--I did 
actually check with ``Front Line'' on these specific claims and 
they acknowledge that, no, they have never done a documentary 
on those. Certainly some of the questions that ``Front Line'' 
deals with I think are important and sometimes ``Front Line's'' 
programming is I think balanced.
    But I do not think you can watch it or listen to National 
Public Radio, which I do at least twice a day, and not get the 
impression that there is a particular perspective guiding it. 
As I say in my written testimony, I agree with some of that 
perspective. I am sympathetic to NPR's skepticism about the 
religious right, its support for social tolerance and freedom 
of expression. But I do think that is a perspective.
    I have a political opinion and so do the editors and 
producers at NPR. So I do think it is impossible to avoid some 
sort of perspective or theme running through your programming 
and I think that ``Front Line,'' the other documentary series, 
NPR, have not avoided that bias.

                        HOUSE APPROPRIATION BILL

    Senator Specter. Ms. Harrison, the Appropriations Committee 
is going to have to consider the issue of digital transition. 
The House did not provide a direct appropriation for digital 
transition, but instead gave CPB authority to carve out funds 
from station grants.
    To what extent would the absence of a direct grant for 
digital transition and a requirement that the money come out of 
station grants be problemsome for you?
    Ms. Harrison. Mr. Chairman, if I could answer that question 
by folding in some of the things that we have been discussing 
here today. Public broadcasting is our strongest connected 
community at a time when we need an informed citizenry. Even 
though we have multiple channels, it seems amazing; the more 
channels we have, the more dumbing down occurs through 
programs, whether it is aimed at children or it is aimed at 
people who are older.
    If we have to give up the money for this very, very 
important digital technology, it will come directly out of the 
sole purpose for which public broadcasting exists, and that is 
to be a network of knowledge. We will have to meet with the 
stations, the general managers, and the cuts will be very bad.
    I feel so strongly about the purpose of public broadcasting 
as an educator, and now as we have increasingly more young 
people in this country who do not understand our history or 
civics, we have new Americans--and you know, sometimes those 
moms and their kids are sitting in front of these children's 
programs and they are learning English, they are learning about 
our country. If we did not have public broadcasting today, we 
would have to re-invent it.
    I come to this job from a former position where in the 
early 90s exchanges were cut. We thought technology was going 
to enable us to increase mutual understanding between the 
people of the United States and other countries. What we found 
out is the people to people connection is important. This 
community connection is vital to our country's strength and I 
think to the strength of our democracy.
    Senator Specter. We have since been joined by Senator 
Stevens, formerly the chairman of the full committee. Before 
going to Senator Inouye for his opening round of questions, 
Senator Stevens, would you care to make an opening statement?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I am 
sorry to be late. To confess, my mind is still in Alaska on the 
fishing stream, and there is 4 hours time difference, too. But 
I do appreciate the opportunity to come here and I hope I can 
stay through a round of questioning.
    I believe that the full amount of the request should be 
supported by the subcommittee and moneys deleted by the House 
be restored. But I also believe that what Mr. Boaz has just 
said is true, that there are signs in portions of the 
Corporation for Public Broadcasting and the Broadcasting 
Service which indicate that there are unfortunate trends in 
some places to take on political issues in a way that 
demonstrates a bias.
    It is my judgment that there should be no bias, no leaning 
to the right or to the left by management or by those who 
operate the stations. The answer that I think you should have 
given, Ms. Mitchell, to the chairman's question are the Federal 
dollars necessary, can these organizations survive without 
Federal money, the answer has got to be no. In my State there 
are many places where you do not have sufficient base for 
public support. Our State helps by paying in some areas the 
telephone services for these various stations. But there are 
other areas in the country which do not have public support 
capability, financial support capability.
    I do believe that the Federal money is not only seed money 
for the system, but it is absolutely necessary to assure that 
the system will be extended to wherever there is a need, rather 
than wherever there is the public support base for financial 
contributions.
    But I thank you for holding the hearing. I do think that 
members of the Congress ought to calm down. This system needs 
our support. I remember so well when we started some of the 
concepts of matching funds. We took away the actual matching 
fund requirement that existed for a little while. But I do 
believe that this is an essential service.
    My mind goes back to ``The Adams Papers'' or to the 
rebroadcasting of some of the BBC programming that we would not 
have had otherwise. I know this system is needed by the 
country, but I deplore the fact that there are some people 
within it that want to exercise their political bias in 
delivering it. That is your problem. I think the board's 
problem is to get rid of that and restore the balance that 
existed in the past in the system and really not look to the 
left or the right, but just look wherever there is bias going 
either direction and set the record straight so we will not 
face this challenge that the House has delivered.
    I think they were right in delivering it, because I think 
you are all here today to really react to the cause of that 
deletion. I think our job is to put the money back and convince 
them that there has been a wakeup call, that the bells have 
rung and that people have heard the message, and we are all 
going to make this system work.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Stevens.
    Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much.

                         AUDIENCE DEMOGRAPHICS

    I would like to assure the panel here that I fully support 
full funding of what you are requesting. I would like to ask 
Ms. Harrison or Ms. Mitchell, do you believe that in the case 
of your operation monies--funded by the taxpayers--are they 
being spent to cater only to the rich and the educated? That is 
what was said here.
    Ms. Mitchell. Our viewers and our supporters, Senator 
Inouye, reflect and mirror very closely the demographic makeup 
of our communities, and that is in terms of income and 
education and ethnicity and cultural background. I would like 
to take Mr. Boaz on some of my visits to our stations, where he 
would meet these people and see their faces, the faces of 
caregivers in rural Mississippi who have no books in the home, 
who are unprepared themselves, and often, as Pat said, even 
without the literacy skills they need, much less the skills to 
pass it on to the children in their care.
    In those places and the rural places in this country, all 
over this country, we are there providing caregivers with 
materials they would not have otherwise: free books, training 
for these caregivers, literacy skills that prepare those 
children, usually the most disadvantaged.
    I would also point out that among all the other children's 
programs that are on television, ours are the only ones that 
begin with educators, that begin with clear learning 
objectives, and that are based in every way, through 
characters, scenarios, to appeal to every child in this 
country, so that no parent or caregiver is left behind.
    Mr. Chairman, may I take this moment also to say that in a 
time when, as Senator Stevens referenced, the trust in media 
has never been lower in this country--and I think there is good 
reason for that. And since our trust level is so high, we felt 
it very important for us to review the editorial standards that 
guide our program decisionmaking. More than a year ago we put 
together a blue ribbon panel of journalists and we asked them 
to look at our programming from every perspective: Was it 
reflecting the needs of our communities that we knew from the 
public opinion polls, and then the editorial standards, were 
they ensuring that we complied, not only with the statutory 
obligations for objectivity and balance, but that we went 
beyond that and clarified what we mean by accuracy, 
reliability, transparency.
    Those new guidelines are in place and we believe that they 
will further ensure that on all subjects--and those subjects 
that Mr. Boaz referenced I am going to pass along to ``Front 
Line'' this afternoon; they sound like subjects we should be 
looking at--that on all subjects we represent the diversity of 
perspectives that is in this country.
    Ms. Harrison. Senator Inouye, I welcome this opportunity to 
address your question and also in an oblique way Mr. Boaz. CPB 
is the only organization within public broadcasting that really 
is cast to look at the concerns you expressed: Are we taking 
care of minorities? Are we looking at rural communities? Are we 
doing the outreach which only public broadcasting can do, prior 
to a program and after, involving communities?
    My father when he died had Alzheimer's. I only wish that my 
mother had been able to access a recent program that public 
broadcasting did on Alzheimer's that was not just a program; it 
had a shelf life long after the program was over. It involved 
caretakers and organizations. After you watched this series, 
you felt there was some light at the end of the tunnel.
    Commercial television cannot do this. This is the focus 
that CPB has and the mandate that we have, that it is not an 
elite programming entity, that we look at the big picture. 
Children more and more--I keep harping on that--if we do not 
focus on children, we are not going to have a very positive big 
picture for anyone across the line of all issues.
    Thank you.

                     IMPORTANCE OF FEDERAL FUNDING

    Senator Inouye. Do you believe that our funding, Federal 
funding, is in our national interest?
    Ms. Harrison. I certainly do. You know, I do not want to 
appear as an instant expert. I have only been on this job for 
4\1/2\ working days. But what surprised me was that in 1975 in 
an amendment to the Public Broadcasting Act President Ford at 
the time not only wanted Federal funding, he suggested it be 5 
years out. Also, there is the authority to fund up to 40 
percent, and the percentage has been going down. So we are at 
15 percent now. I think the highest was 19 percent. 15 percent 
is modest, and I think all credit to the stations who have 
raised 85 percent of what they need to do, which keeps it 
local.

                           PREPARED STATEMENT

    Senator Inouye. I notice my time is up, sir.
    [The statement follows:]
             Prepared Statement of Senator Daniel K. Inouye
    Since its creation as part of the 1967 Public Broadcasting Act, 
public broadcasting has pursued an ambitious mandate to provide 
educational, cultural and informational programming that takes creative 
risks while serving traditionally unserved and underserved populations.
    Public broadcasting is a unique voice in the local community that 
we have come to trust and depend on. A recent survey conducted by The 
Roper Center for Public Opinion Research determined that public 
broadcasting is one of America's most trusted institutions.
    Public television has set the standard with award-winning 
documentaries, outstanding children's programming, and in-depth news 
and public affairs programming that cannot be found on commercial 
television channels. The current audience for National Public Radio 
programming is 26 million listeners each week, up 97 percent over the 
past decade, as more and more Americans seek thoughtful analysis of the 
important issues facing our nation and our communities.
    I am proud to be a long-time proponent of public broadcasting and 
believe that public broadcasting has been a tremendous success.
    The funding cuts proposed by the House are ill-advised and poorly 
timed. As this Committee is well-aware, massive consolidation in the 
media industry along with a general coarsening of public discourse on 
the commercial airwaves is making it more and more difficult for 
families to find quality programming that is suitable for children. It 
makes no sense to undermine the primary place on the channel line-up 
that parents and families trust the most.
    I am concerned not only about the funding cuts but also about the 
recent controversies reported in the press over possible misuse of 
taxpayer funds and the lack of transparency in decisions made by the 
Chairman of the CPB Board.
    As a result of the current budget deficit, many important programs 
face funding cuts. These are not easy choices to make. While I am 
pleased that some of the funding for public broadcasting was restored 
by the House, funding for several important programs has been 
eliminated.
    Funding for ``Ready to Learn,'' which supports high quality 
children's programming, and grants supporting the transition from 
analog to digital broadcasting and the interconnection services that 
link public broadcasting stations together were all canceled out by our 
House colleagues. Traditionally, the Senate has restored this funding 
and I hope that Senators Specter and Harkin will continue to champion 
these important programs.
    In particular, I question the wisdom of eliminating the funding to 
help local stations make the transition from analog to digital 
television, while at the same time, the Commerce Committees in both the 
House and Senate are considering legislation to complete the digital 
transition.
    Public broadcasters are leading the way in the digital transition. 
More than 87 percent of public television stations are operating in 
digital. Public television licensees have embraced new services enabled 
by digital technology. Many stations already utilize multicasting 
capabilities to provide ``PBS Kids'' programming as a dedicated 
children's channel and to provide educational services through ``PBS 
You'' as a dedicated channel.
    Even without a government mandate, public radio stations are moving 
quickly to implement digital technology with 79 public radio stations 
broadcasting in digital and over 300 with licensed digital technology.
    The use of taxpayer funds by the Chairman of CPB to hire lobbyists 
and consultants raises serious concerns. Not only do such actions 
potentially violate the prohibitions against advocacy in current law, 
but the fact that these steps were apparently taken without 
consultation with either the full Board or the President and CEO of CPB 
is extremely troubling.
    The Inspector General is currently investigating whether these 
decisions violate the law and the CPB's bylaws, and I will look forward 
to his full report on those concerns. Without accountability and 
transparency in the use of taxpayer funds, the legitimacy of these 
actions is rightly questioned.
    Concerns have also been raised that the CPB is straying from its 
statutory obligation to act as a heat shield between Congress and 
programming decisions. The Public Broadcasting Act requires the CPB 
``to carry out its purposes and functions and engage in its activities 
in ways that will most effectively assure the maximum freedom of the 
public telecommunications entities . . . from interference with, or 
control of, program content or other activities.''
    Thank you Mr. Chairman and I look forward to the testimony of the 
witnesses today on these important issues.

    Senator Specter. Thank you very much, Senator Inouye.
    Senator Stevens.
    Senator Stevens. Senator Durbin.
    Senator Specter. Well, the early bird rule would go to 
Senator Durbin, but the practice of the committee has been to 
alternate between the sides.
    Senator Stevens. I am not prepared yet.
    Senator Specter. Senator Durbin, you have the floor.

                POLITICAL BALANCE IN PUBLIC BROADCASTING

    Senator Durbin. Thank you, Mr. Chairman, and I thank the 
panel. I especially thank you, Mr. Chairman, for calling this 
hearing because if your experience is like mine, this is an 
issue on the minds of a lot of people, what is happening to 
public broadcasting. Are we going through some effort now to 
politicize this, to change the nature and philosophy of 
something that we value very much in this country?
    I am a fan, have been for a long time. Obviously, I am not 
alone. When you read the surveys of people asking them what 
they think about public broadcasting, it is pretty good. Over a 
thousand adults polled, PBS and NPR had an 80 percent favorable 
rating. Not a single one of us on this side of the panel would 
look askance at that number. 80 percent favorable is pretty 
good.
    When you ask if it is fair and balanced, not to steal a 
line from some other company, 55 percent said PBS programming 
is, 79 percent said NPR is fair and balanced.
    That is why it strikes me as odd, Mr. Tomlinson, that we 
are on this crusade of a sort here, this mission, to change 
what is going on. I do not quite get it, understand what your 
agenda is here and what you are trying to achieve.
    I read and I watched over the break Mr. Moyers' speech in 
St. Louis, ordered a copy online, read it twice. It is 
troubling to me. I think Bill Moyers' program now is a balanced 
program and I think most people would agree with it. Now, Mr. 
Mann that you hired or someone hired to monitor this program 
came up with some rather strange conclusions about who is a 
liberal and who is a conservative and who is a friend of the 
President and who is not.
    Even I think in your opening statement you have tried to 
clarify that you do not stand by his conclusions, for example 
on Senator Hagel, the characterization of Senator Hagel as 
liberal and such. Maybe you do think he is a liberal. I do not 
know what that conclusion might be.
    But the point I would like to get to is this. Let us go to 
a specific question. Under section 19 of Public Broadcasting 
Act you are required to mandate political balance on all shows. 
It has been reported that you have championed the addition of 
``Wall Street Journal Editorial Report'' to the PBS lineup and 
that you have raised money for that purpose. I would like you 
to clarify. If you did that, how much money was raised? What 
was your purpose in bringing in the Wall Street Journal, which, 
as has been noted, is a publication owned by a company that has 
been very profitable and would not appear to need a subsidy to 
put on a show?
    Mr. Tomlinson. I think Senator Stevens hit the nail on the 
head: no bias. No bias on the left, no bias on the right. If we 
have programs, like the Moyers program, that tilt clearly to 
the left, then I think according to the law we need to have a 
program that goes along with it that tilts to the right and let 
the people decide.
    Senator Durbin. Let me ask you about this ``clearly to the 
left'' bias on the Moyers show. How did you reach that 
conclusion? Did you watch a lot of those shows?
    Mr. Tomlinson. I watched a lot of those shows, and I think 
Mr. Mann's research demonstrates that the program was clearly 
liberal advocacy journalism. It was good broadcasting. Bill 
Moyers is a very capable broadcaster. But it seems to me we 
should be able to agree that we do not want bias, and if we do 
in the interest of provoking debate, if we have some bias on 
public television, let us balance it out in the course of the 
evening.
    Senator Durbin. So what was Mr. Mann's expertise? Why did 
you happen to hire him? According to Senator Dorgan, who has 
seen the raw data, he was paid thousands of dollars. His data, 
riddled with spelling errors, was faxed to you from a Hallmark 
store in downtown Indianapolis. What is this man's background 
for judging a program like Moyers' program and whether it is 
liberal or not?
    Mr. Tomlinson. He worked for 20 years for the National 
Journalism Center, which is a 401(c)(3) organization.
    Senator Durbin. National Journalism Center?
    Mr. Tomlinson. National Journalism Center.
    Senator Durbin. What is that?
    Mr. Tomlinson. But the point of watching----
    Senator Durbin. Excuse me. What is the National Journalism 
Center?
    Mr. Tomlinson. It is a center here in Washington that funds 
internships for----
    Senator Durbin. And they are straight down the middle of 
the road, moderate, centrist group, right and left?
    Mr. Tomlinson. I think it qualified for 401(c)(3) support. 
I do not think it was regarded as right of center.
    But the point is, it is like Bob Dylan said, you do not 
need a weather vane to see which way the wind is blowing. It 
was very clear that the Moyers program was liberal advocacy 
journalism. I wanted a statistical basis because I did not 
think people were responding appropriately. We got the 
statistical basis, and as soon as----
    Senator Durbin. From Mr. Mann?
    Mr. Tomlinson. From Mr. Mann's research. And as soon as we 
got the statistical basis, it turned out other people had 
determined that that program should be balanced. It was 
balanced. All this took place something like a year and a half 
ago.
    Senator Durbin. Well, let me--I have got to get to the 
basic question here. I will not go through the list of some of 
Mr. Moyers' more liberal guests--Frank Gaffney, Grover 
Norquist, Richard Viguerie, Paul Gigot--on his liberal program.
    Mr. Tomlinson. It was our experience----
    Senator Durbin. But let me ask you this if I can.
    Mr. Tomlinson. Yes, sir.
    Senator Durbin. Did you feel that it was your 
responsibility or authority to go out and put together the Wall 
Street editorial page show and to find subsidy for that? Did 
you feel that that was your responsibility to do?
    Mr. Tomlinson. I felt that the law required us to reflect 
balance in our current affairs programming. I was not the only 
one involved in encouraging a program that represented a 
diverse point of view from the Moyers show.
    Senator Durbin. So following Mr. Moyers' comments in St. 
Louis, can we expect you to do the same for ``The Nation 
Magazine?'' Are you going to raise $5 million to make sure they 
have a show?
    Mr. Tomlinson. I do not see, I do not see today we have a 
balance problem. We have a 30-minute show ``Now'' and we have a 
30-minute show, ``Wall Street Journal.'' That is balanced. Let 
the people decide. Balance is common sense.
    Senator Durbin. But Mr. Tomlinson, the people I said at the 
outset already decided. They thought that the Corporation for 
Public Broadcasting was presenting balance and they thought 
that--they gave a high approval rating. You have perceived a 
problem here which the American people obviously do not 
perceive.
    Mr. Tomlinson. Well, certainly in terms of ``Jim Lehrer 
News Hour'' there is no balance problem. That is great 
journalism. Public broadcasting has a great reputation in these 
areas.
    We had a period of time a few years ago where I think we 
were all asleep at the switch in terms of the Moyers program. I 
never wanted to take the Moyers program off the air.
    Senator Durbin. What do you mean by ``asleep at the 
switch'' with the Moyers program? I would like you to tell me a 
little bit more.
    Mr. Tomlinson. Because we should have been aware that on 
Friday evening if you presented liberal advocacy journalism for 
an hour you really should present conservative advocacy 
journalism for an hour, just for a matter of balance. The law 
requires balances.
    Senator Durbin. This was your conclusion based on Mr. 
Mann's investigation?
    Mr. Tomlinson. This was my conclusion when I found that 
there was a dispute over my view of this program and the 
general view of this program. I quite frankly have run into 
next to no serious people who regarded the Moyers program as 
anything other than good liberal advocacy programming.
    Senator Durbin. Will you accept his invitation to take an 
hour, go on the air on public television, and to debate that 
issue?
    Mr. Tomlinson. Absolutely. But you know----
    Senator Durbin. Oh, you will accept it?
    Mr. Tomlinson. Oh, absolutely. But you know, Senator 
Durbin, Bill Moyers and I both have concluded that this debate 
is not good for public television.
    Senator Durbin. No, it is not.
    Mr. Tomlinson. There were things that Moyers said in that 
speech about me that were most inaccurate and unfair. It 
saddened me to see that. I could have come back in kind. I 
chose not to. We are for public broadcasting, we are for no 
bias in public broadcasting. We do not want bias on the right 
and we do not want bias on the left.
    Senator Durbin. I have gone over my time. I thank the 
chairman for giving me a couple extra minutes and I will wait 
for the next round.
    Mr. Tomlinson. Thank you, sir.
    Senator Specter. I thought we had a little more leeway 
here, Senator Durbin, than we do on the Judiciary Committee. So 
the red light was flexible.
    Senator Stevens, would you care to question?

                PUBLIC TELEVISION INTERCONNECTION SYSTEM

    Senator Stevens. Well, I would clear up the Senator from 
Illinois' confusion. I think Bill Moyers is biased and I 
respect him for it. I think he is a very talented spokesman for 
his point of view in the political spectrum. I applaud you for 
recognizing that and counterbalancing it. I think your support 
will demonstrate that in the long run.
    But the main thing is I want to get back to the financing 
of this, because that is the question before us, really. I just 
was waiting for the information, Mr. Chairman. My State 
contributed $5.3 million as a State to public broadcasting 
stations in Alaska because we recognize the need for the system 
and to maintain it. I do believe that all States that have 
similar dependent communities should recognize it and should 
come forward and support it.
    I would like to know whether you can tell me about the 
concepts that have been left out of this bill this year. The 
satellite upgrade of $40 million, the request from the 
President was deleted. The digital programming of $45 million 
was deleted. Each of those had had money in the fiscal year 
2005. And the Ready to Learn program of $32 million was 
deleted.
    Now, those are the items that we are really concerned with. 
CPB's request was $430 million. The House brought it down to 
$400 million. There are lots of small adjustments that have to 
be made in these bills this year. I am not as disturbed about 
that as I am disturbed about the deletion of satellite 
upgrading, digital programming, and the Ready to Learn program, 
which I think has been eminently successful in places like the 
rural stations that I mentioned in my State.
    Who among you would be willing to talk about the satellite 
upgrade and its necessity? Mr. Lawson, is that you?
    Mr. Lawson. Yes, sir, I will take that one. It has been a 
Federal responsibility since day 1 to provide for this 
interconnection between the stations for the distribution of 
programming. Congress last, with your support, last funded that 
in the early 1990s. That system is becoming obsolete. The 
satellite leases are expiring. If that system is not renewed, 
then we are FedExing tapes around.
    This is a system, this is the glue that holds our whole 
system together in terms of technical infrastructure. The 
exciting thing about the next generation, right now we are 
feeding a lot of programming to tape machines. It is expensive, 
it is very labor-intensive. This system will allow more peer to 
peer, station to station interaction. They will literally be 
emailing programs around as attachments to emails.
    So you are going to see Alaska and stations all over this 
country with this new system not only receiving the PBS 
programming over the satellite, but they themselves will be 
able to move programming around and share it with other 
stations, without even having to go through a national 
organization like PBS.
    So the infrastructure for the satellite interconnection is 
absolutely crucial. Without it we are not connected.
    Senator Stevens. Let me tell you a little history. When I 
moved to Alaska our programming, such as sports and weekly 
programming, they were sent up by tapes to Alaska. So if you 
had a baseball game on Friday on the 1st in Washington, D.C., 
you would see it on the 8th in Alaska. You know, I soon got out 
of the habit of watching baseball.
    My point is right now what this means is real-time delivery 
to the country as a whole. Satellite interconnections are 
available in the South 48. In many places you can use fiber or 
you can use other connections. But in the rural part of the 
country that satellite connection is absolutely important.
    So I want to assure you that is one thing, and I think in 
my colleague's State in Hawaii those small stations around the 
islands--actually, if you put a ring around Hawaii it would be 
bigger than Alaska; did you know that? We do not let them count 
the water. Ours is frozen in between, but his is open water.
    But the point is is we need that.
    Now, digital programming, who is going to tell us about the 
digital programming and the reason for even the President 
increased it by $6 million? Who wants to comment on that? Is 
that yours too, Mr. Lawson? Ms. Harrison?

                           DIGITAL CONVERSION

    Ms. Harrison. Well, again jumping in probably where I 
should not, but I, as somebody new to this position, I come 
with a fresh eye, I do believe. And I am just so impressed. 
Just to give you an example, there is something called the 
Think Bright Digital Content Initiative, and that is going to 
be programming targeted to address five community needs: family 
literacy, success in school, family health, learning 
disabilities, civic engagement. It is going to also include 
research and development.
    What is really happening as we move into this new 
technology--and again, that is part of the 1967 mandate--as we 
keep up with changing technology, so we can be that connector 
to the community, we are now facing almost a different viewer 
and listener, not the passive viewer or listener, but the 
viewer and listener who wants to really have input, who wants 
to participate.
    Now, right now we are saying this is the younger 
generation. They are learning. In many cases they are way ahead 
of us. The technology is ahead of us. For public broadcasting 
to be vital and, as we said, this important connector to 
community, the technology must be there. We cannot have the 
programming without the advanced technology. It is going to 
enable us to do things we had not thought possible before.
    I think it is one of the most exciting developments. As we 
look at the successor generation and how they are involved with 
computers and downloading on their MP3's, we are going to have 
a growing group of listeners and viewers who are really going 
to be there on some of these issues that I mentioned earlier.
    Senator Stevens. My time is up, but if I could I would like 
to ask one question about Ready to Learn. Ready to Learn money 
also went up by $8.7 million, I believe--no, $7.7 million. Who 
can explain Ready to Learn to us now?
    Ms. Mitchell. The Ready to Learn grant, Senator, as you 
know has been a very successful partnership with the Department 
of Education. Over the last 10 years PBS, our children's 
programming producers, and our stations have leveraged this 
grant again to provide new series that are based on educational 
learning objectives, teaching the most disadvantaged, as well 
as all of our Nation's preschoolers, the skills that they need 
for literacy.
    In addition, we work with the Department of Education to 
provide these educational programs and then stations take the 
largest percentage of these Ready to Learn funds and use them 
to provide, through experienced educational teams at every 
station, the kind of workshop, training, and programs that are 
making the difference in the lives.
    We looked at the number. It was 100 million families have 
been affected by the Ready to Learn programs. Going forward, 
CPB, PBS, and other teams of producers worked together on our 
new proposal, looking at how we might engage these new digital 
technologies to enhance what we are already doing.
    If I might augment what Pat said about our leadership in 
the digital arena, we know how to use these technologies and we 
know how to use them for public interest and public education.
    Senator Stevens. I am sorry, my time is up. I am informed I 
made a mistake. I was looking at your request rather than the 
President's request.
    But let me tell you this. Alaska has the highest rate of 
computer literacy in the Nation on a per capita basis, despite 
our isolation. The reason is our young people get the computers 
from the second grade up. But they also, through the local 
stations that they are watching, have these programs. That 
makes them relevant to their lives even though they in most 
instances do not have modem capability, they do not have the 
ability to go up. Now, the schools, libraries, and health 
facilities do, but individual citizens do not have that same 
access.
    So it is very important to us that this kind of concept of 
Ready to Learn be supported also.
    Thank you very much, Mr. Chairman.
    Senator Specter. Thank you, Senator Stevens.

                              BILL MOYERS

    Senator Harkin, who is the ranking Democrat on the 
subcommittee, could not be here this morning. But he asked me 
to ask this question on his behalf and on his time, although it 
retraces some of what Senator Durbin has had to say. This 
question is for you, Mr. Tomlinson.
    Mr. Bill Moyers' comment was made in a speech in St. Louis 
about 2 weeks ago and Senator Harkin would like to know whether 
you would be willing to take up Mr. Moyers' expression of an 
interest in a public debate between you and him on the 
questions you have raised about him and his objectivity. The 
question that Senator Harkin has is is that a conversation or 
debate which you would be prepared to engage in with Mr. Moyers 
publicly?
    Mr. Tomlinson. Absolutely, Mr. Chairman. Let me say, 
though, that in that speech in St. Louis Mr. Moyers said some 
most inaccurate things about me. He charged or he implied that 
in the early 1980s when I was chairman, when I was director of 
Voice of America, that I was somehow involved in some blacklist 
scandal. I have never been associated with anything like that.
    He implied I was forced out of office because of that. I 
left my years of service at VOA with general acceptance that I 
had been a success, as it were.
    Now, this thing between Mr. Moyers and me could be a lot of 
fun. We would have a lot of fun debating on television for an 
hour about that. It would not be good for public television and 
I think Mr. Moyers and I both agree that in recent weeks we 
stopped--we now have balance on that Friday evening offering 
and we did not think it was in the interest of public 
broadcasting for us to continue.
    Senator Specter. Do you think it would be a lot of fun?
    Mr. Tomlinson. It would be a lot of fun.
    Senator Specter. Would you think it ought to be broadcast 
on ``Saturday Night Live?''
    Mr. Tomlinson. That is probably where it belongs.
    Senator Specter. How about on public broadcasting, where 
you have a little more control? I do not think you can control 
``Saturday Night Live,'' but would you be willing to have it on 
public broadcasting?
    Mr. Tomlinson. Yes. As I say----
    Ms. Mitchell. Mr. Chairman, if I might, Mr. Tomlinson would 
have to----
    Senator Specter. Do you want to join in the debate, Ms. 
Mitchell?
    Ms. Mitchell. No, I just thought it was important to 
clarify that that is not Mr. Tomlinson's decision, what would 
go on PBS. That decision is made by PBS management.
    Senator Specter. We may come to PBS management here. But 
Mr. Tomlinson has standing to express a view as to whether he 
would like to have it there or not.
    Ms. Mitchell. We would consider it.
    Senator Specter. Now that you have considered it, what is 
your decision?
    Ms. Mitchell. I think your suggestion of ``Saturday Night 
Live'' might be a better place.
    But in all seriousness, Senator, it just seems important 
to, as Mr. Tomlinson has said and I think you are hearing from 
all of us, to focus on the fact that, as Senators on this 
committee have already indicated, the American public looks at 
all of our programming and they trust it and they value it, and 
they do not judge it only in terms of political balance. There 
are a lot of other balances that we are concerned about.
    We are concerned in media about the balance between what is 
important, what matters in this country, as well as what just 
amuses us. What entertains us is not as important as what is 
educating us. Our role as public service media is to use this 
enormous power to educate, to strengthen family values, and to 
contribute to the strength of this democracy, and that judges 
and that guides our decisions about programming.
    Senator Specter. Well, Senator Harkin is almost out of 
time. I would perhaps--well, your acceptance of the debate 
challenge is fine, Mr. Tomlinson. We will now have to find a 
venue, and perhaps if you cannot find any other venue we can 
have a hearing before the subcommittee. But I do not know that 
C-SPAN would be willing to do any more on this subject, but we 
could see.
    Senator Harkin wants to yield back 53 seconds.

                      CPB INTERCONNECTION REQUEST

    Coming back to my own 5 minutes of time, I have asked the 
question about the digital transmission and the lack of funding 
in the House bill. Senator Stevens has covered this to an 
extent, but I want to be sure about your response. The 
interconnection 10-year lease expires on October 1 next year 
for the satellite that transmits public radio and television 
programs. It is going to cost $120 million. We have already put 
up almost $50 million and CPB is requesting an additional $40 
million. The President and the House have both proposed 
diverting $52 million from 2006 grants.
    Ms. Mitchell, Mr. Lawson, I take it your answer would be 
the same as on the issue of digital transition, if you did not 
get funding that it would be very, very problemsome?
    Mr. Lawson. Yes, sir, it would. That would come--that money 
would come directly out of the station operational money and 
programming money. I would like to point out that the 
conversion to digital is a Federal mandate and our stations 
have raised and spent $1.1 billion to do that. Half of that 
came from State legislatures. Congress has been generous in the 
last few years with Federal support and we are sort of over the 
hump in terms of getting this thing built out. But that final 
money for the next couple of years is needed, especially for 
stations serving rural America that do not have the kind of 
matching money that some of the other stations have.
    Senator Specter. Thank you very much, Mr. Lawson. We do not 
have much time. I want to move on to some other questions.
    Mr. Boaz, in your written statement you say: ``As a 
libertarian, I have an outsider's perspective on both liberal 
and conservative bias and I am sympathetic to some of the 
public broadcasting's biases, such as its tilt toward gay 
rights, freedom of expression, and social tolerance and its 
deep skepticism of the religious right.''
    Picking up on your statement about being sympathetic toward 
gay rights, let me ask you about the request from Education 
Secretary Margaret Spellings in January of this year to PBS 
asking that it not distribute an episode of the children's 
program ``Postcards from Buster'' that featured a family with 
two lesbian moms. PBS agreed not to distribute the program. 
What is your view of that?
    Mr. Boaz. Well, I am not personally offended by Buster's 
trip to Vermont. I think it is good to teach social tolerance. 
But I understand that there are a lot of Americans who do not 
appreciate that, who did not like the program or would not have 
if they had seen it. So I understand why Secretary Spellings 
thought it was her responsibility to interfere.
    What I would say in relation to public television is this 
is why it is a bad idea to have a government-run television 
station, because Secretary Spellings can write a letter to Fox 
or CNN saying, hey, I wish you would not run this program, but 
she has no authority over them. Here, because of the 
government's funding, the taxpayers fund these networks, 
therefore the taxpayers are occasionally going to exercise 
their authority to look at what the stations are running.
    I think that is not good. I think it is not good to have 
political overseers. I am sure that Senators would exercise 
more oversight if they saw these things more often. I am sure 
Senators, for instance, are usually in transit or visiting 
community affairs on Friday nights, so they have not actually 
seen the Bill Moyers program, because if they did I think it 
would be difficult to sustain the argument that it was not 
advocacy journalism, though good advocacy journalism.
    But I think the basic point that ``Buster'' illustrates is 
the danger of having political oversight of a news and public 
affairs program.
    Senator Specter. Ms. Mitchell, who made the decision with 
respect to ``Postcards from Buster'' and Secretary Spellings' 
request?
    Ms. Mitchell. The decision not to distribute the program on 
the national program service that goes from PBS to our stations 
was made by PBS management and was made before the letter from 
Secretary Spellings.
    But might I speak just a moment more about this unique 
partnership and why it has worked so well? The Ready to Learn 
teams, who include PBS children's producers, a PBS team, 
station teams, as well as the team at the Department of 
Education, sit down and very carefully review the objectives of 
these programs, and they review the subjects that are going to 
be treated. But when this subject came in we felt that it was 
of such controversial nature for some of our communities that 
it was best to go back to what you have heard us all say all 
morning: public broadcasting is a local institution.
    Senator Specter. Do you share Mr. Boaz's--my red light just 
went on, but I want to finish this subject up with a very brief 
question and then you can expand on your answer. Do you share 
Mr. Boaz's comment about his concern about the regulatory 
approach or the decision being made by a public agency on this 
kind of an issue?
    Ms. Mitchell. No, indeed I do not. The money that has come 
to PBS and our producers from the Ready to Learn partnership 
with the Department of Education has made it possible to 
prepare millions of children in this country for school.
    Senator Specter. Senator Inouye.

                         CPB USE OF CONSULTANTS

    Senator Inouye. Thank you.
    I would like to ask Mr. Tomlinson a few questions. Do you 
believe it is legal or appropriate for the chairman of the 
board, CPB board, to hire a consultant at Federal funds in 
excess of $14,000 without the consultation or approval of the 
board?
    Mr. Tomlinson. Senator Inouye, I observed every procedure 
that I had seen used over my 5 years on the board in the hiring 
of this consultant. These decisions were made in the CPB front 
office. I went to the president of CPB, I went to the general 
counsel. I asked that this contract be handled like any 
consultant's contract through the business office. It was 
handled by the general counsel.
    In my 5 years on the board, the board had never been asked 
about contracts. I certainly was not trying to hide this from 
the board and I would have taken it to the board in a minute if 
anyone had pointed to me that this should have been done.
    Senator Inouye. In the case of Mr. Mann, did you get the 
approval of Ms. Mitchell?
    Mr. Tomlinson. I am CPB. She is PBS. I got the approval of 
the president of CPB, the general counsel, and the business 
office. The consultant's contract was handled no different----
    Senator Inouye. The law does not require you to consult 
with the board?
    Mr. Tomlinson. No, sir. I was certainly not trying to hide 
it from the board and if I had known of any tradition that the 
board should be involved I certainly would have involved the 
board.

                              CPB POLLING

    Senator Inouye. There are also press reports that allege 
that you refused to make public CPB's own research that had 
been conducted by two polling firms, Terrence Group and the 
Lake Snell and Perry Associates.
    Mr. Tomlinson. That is simply not true. On the day that 
charge was made, you could go to the CPB website and find all 
the results of these polls.
    Senator Inouye. Well, I am giving you the opportunity.
    Mr. Tomlinson. Yes, sir. I appreciate it.
    We also share the friendship of Mary Bitterman, who did an 
outstanding job at Voice of America and has done an outstanding 
job for public broadcasting.

                         CPB USE OF CONSULTANTS

    Senator Inouye. Did you use $15,000 of taxpayers' funds to 
hire two Republican lobbyists without the knowledge of the 
board to defeat amendments to the reauthorization bill?
    Mr. Tomlinson. The board was stunned to discover that there 
was a serious proposal in the authorization process to require 
that four of our nine members come from the community of public 
broadcasters. The board unanimously opposed this. We have a 
very small staff relative to other agencies at CPB. Our 
legislative person was on vacation when we made this discovery. 
Our leadership, the leadership, again our president, general 
counsel, were involved in hiring at least three consultants to 
help us communicate, determine what the situation was on 
Capitol Hill in that time frame.
    I was an indirect part of the process. The decision again 
was made by the chain of command.

                        JOURNAL EDITORIAL REPORT

    Senator Inouye. Is it appropriate for the chairman of the 
board to secure private funding from the corporate world for 
the ``Journal Editorial Report'' hosted by Mr. Paul Gigot?
    Mr. Tomlinson. The decision to add Paul Gigot and the 
``Wall Street Journal Editorial Report'' was one that involved 
a lot of people at both PBS and CPB. It was a decision that I 
saw no opposition to, and I was not directly involved in 
negotiating any contracts involving it.
    Senator Inouye. You had no role to play in that?
    Mr. Tomlinson. I certainly thought it was a good idea and I 
thought it was an important idea because of the importance of 
having balance in current affairs broadcasting. I would never 
have put the Wall Street Journal show on alone. Again, as 
Senator Stevens said, no biases; make it neutral, make it 
common sense. If you have a liberal show, have a conservative 
show, one in the middle. If you have a conservative show, have 
a liberal show.
    This is to me common sense and it is good for public 
broadcasting.
    Senator Inouye. So your position is that these press 
reports are false?
    Mr. Tomlinson. The press reports, yes, sir.
    Senator Inouye. Thank you.
    Senator Specter. Thank you, Senator Inouye.
    Senator Durbin.

                        ``NOW WITH BILL MOYERS''

    Senator Durbin. Mr. Tomlinson, I am going to follow up on 
that. So let me understand what you are saying. You had to get 
``Now'' off the air because of liberal advocacy----
    Mr. Tomlinson. No, no. I never wanted to take ``Now'' off 
the air.
    Senator Durbin. No pressure on Mr. Moyers?
    Mr. Tomlinson. No, no, sir. No, sir. In fact, if I had put 
pressure on Mr. Moyers you know exactly the way Mr. Moyers 
would have responded.
    Senator Durbin. So let me ask you this question. Mr. Moyers 
has said that when rumors began to circulate regarding hiring a 
consultant to monitor his show he tried three times to meet 
with the CPB board to hear their concerns and answer their 
questions three times, and every time he was refused. So let me 
ask you to clarify then. If you had no axe to grind with Mr. 
Moyers, no problem with Mr. Moyers, why is it he could not get 
to meet with you?
    Mr. Tomlinson. Well, I did have a problem with his show. In 
terms of at the time--and I would have to go back and 
reconstruct about his requests to meet with us. At the time I 
remember discussing it with the president of CPB and he did not 
think it was appropriate to have such a meeting because our 
purpose--you are not going to change Bill Moyers. He has got a 
wonderful record of public service, but you are not going to 
change the politics of Bill Moyers, nor were you going to 
change the politics of that show. Frankly, I did not want to 
change the politics of----
    Senator Durbin. Well, I wish you would check, because he 
said he tried to reach out to you three times and could not get 
a meeting.
    The point I want to get to is this. Assume for a second 
this was, as you called it, liberal advocacy on the ``Now'' 
show. Now we have something from the Wall Street Journal. Would 
you call that conservative advocacy?
    Mr. Tomlinson. Yes.
    Senator Durbin. Would you?
    Mr. Tomlinson. Yes.
    Senator Durbin. Okay.
    Mr. Tomlinson. So now we have a 30-minute show, a successor 
to Moyers' called ``Now,'' and a 30-minute Wall Street Journal 
show. That is balanced.
    Senator Durbin. You do not expect within the content of 
each show that there be a balanced presentation, or do you?
    Mr. Tomlinson. No, I do not think that is realistic. I am 
old school. I think you should have the kind of programming 
that gives you back and forth. I think that you should have 
liberals and conservatives on these shows and let the viewer 
decide.
    Senator Durbin. I guess what troubles me then is why you 
had to put this pressure on Mr. Moyers. I do not understand 
that. If you just wanted to put a conservative show on next to 
him, you could have done that all along.
    Mr. Tomlinson. I do not quite understand how I put pressure 
on Mr. Moyers.
    Senator Durbin. You do not think you put any pressure on 
Mr. Moyers?
    Mr. Tomlinson. No, no. In fact, I think if I had he would 
have responded in kind. He does not respond well to pressure.

                            VOICE OF AMERICA

    Senator Durbin. Let me say that you made some references to 
your service at the Voice of America quite a few years ago and 
also the fact that it was referred to in Mr. Moyers' speech. I 
would like to make sure the record reflects that Mr. Moyers 
said this about your service at Voice of America and the 
controversy involving Mr. Frick, and I quote Mr. Moyers' 
speech:
    ``Let me be clear about this. There is no record apparently 
of what Ken Tomlinson did. We don't know whether he supported 
or protested the blacklisting of many American liberals or what 
he thinks of it now.''
    That is a direct quote from his speech. So I do not know if 
that is all of the things that he said there, but that was 
included in his remarks.
    If I might ask you, too----
    Mr. Tomlinson. There was an earlier reference that linked 
me to----

                        ``NOW WITH BILL MOYERS''

    Senator Durbin. That you were working there at the time Mr. 
Frick was involved in some of these activities, that is true.
    Let me ask you this. The board leadership, you say in your 
testimony: ``The board leadership of PBS recognized that Friday 
evening programming should reflect different points of view. 
When it was clear that PBS was following through on its 
commitment, I ended the Mann study and did not make it public 
because to do so would have called attention to the fact that 
for nearly 2 years public broadcasting ignored our legal 
responsibility for presenting diverse viewpoints on 
controversial views.''
    I am trying to follow what you are saying here. Without 
your study--in other words, without your study alleging liberal 
bias in PBS programming, people would not have noticed it? Is 
that what you are saying?
    Mr. Tomlinson. I did not need a study to document that the 
Moyers program was biased.
    Senator Durbin. Then why did you pay Frederick Mann 14,000 
taxpayers' dollars?
    Mr. Tomlinson. Because I was facing people, not unlike you, 
who were saying at the time: Gee, there is nothing wrong with 
the Moyers program; this program is balanced. Statistically--
you know, Warner Wolf used to say: ``Let's go to the 
videotape.'' We took 6 months of Moyers programs and 
demonstrated that it was left wing advocacy journalism.
    As I said, it is outstanding stuff. He is a great 
broadcaster. But the show was biased from the left.
    Senator Durbin. I do not understand how this gentleman is 
competent to make that conclusion, and some of the things that 
he characterizes on here are clearly off the wall. But at the 
risk of----
    Mr. Tomlinson. He had, for example, Bob Barr, a Republican 
former Congressman, was on the Moyers show to attack the 
Patriot Act. He was not on the Moyers show to take any of his 
traditional positions.
    Senator Durbin. Sounds pretty balanced to me.
    Mr. Tomlinson. He was on the show to balance the Patriot 
Act. That is how he got on the show. Conservatives and 
Republicans got on the Moyers show by and large when they took 
positions which agreed with Mr. Moyers.
    Senator Durbin. Are you familiar with the fact that the 
bill to reform the Patriot Act is co-sponsored by me and 
Senator Larry Craig.
    Mr. Tomlinson. Well, I certainly welcome reform of 
anything, Senator. I am just talking about journalism here.
    Senator Durbin. That is what I am talking about, too.
    Mr. Tomlinson. I am talking about how he came to be on that 
show.
    Senator Durbin. Ms. Harrison, are you familiar with Bill 
Moyers' program? Did you watch it?
    Ms. Harrison. I have to admit I have not. I have been 
working 24-7 in my previous job. But I guess I should let you 
ask the question before I answer a question you have not asked 
yet.

                      PATRICIA HARRISON BACKGROUND

    Senator Durbin. I just want to try to understand your 
familiarity with Corporation for Public Broadcasting, NPR, PBS.
    Ms. Harrison. I understand the mission and that we have two 
tracks here. One is to ensure that public broadcasting is not 
pressured or interfered with by the Federal Government in any 
way or the board. The other mission is to ensure that there are 
a diversity of views.
    I do believe in just looking at a lot of material in the 
last several days that one of the answers to this--and I too 
would like to get back to the mission of public broadcasting--
is the Office of the Ombudsman, an independent office. They 
really have no authority to pre-censor, to censor, but they 
just do what many ombudsmen do for newspapers, and to take it 
out of this whole controversial range and have it as something 
that is just ongoing; I know PBS has their own ombudsman, and 
to start focusing on the real issue here, which is the 
importance of public broadcasting.
    Senator Durbin. Mr. Chairman, if I could ask one last 
question of Ms. Harrison.
    Ms. Harrison. Yes.
    Senator Durbin. If we matched up our resumes, very few 
things would come out the same, but----
    Ms. Harrison. I have a feeling where you are going.
    Senator Durbin. But it would demonstrate that we are both 
political animals. We both from our partisan perspectives have 
been pretty actively involved in our partisan beliefs. Clearly 
the concern over what is happening with Mr. Tomlinson is that 
we are politicizing public broadcasting, and the fear is now 
that if it reaches the point where the average viewer, who now 
thinks so highly of public broadcasting by radio or television, 
begins to believe that it has now been taken over by people 
with a political agenda, who want to spare this administration 
or any administration of criticism, who want to make certain 
that those who are the most effective advocates for one point 
of view are silenced or diminished, it is going to really tear 
at the heart of what is good about public broadcasting.
    Now, you come in with a strong Republican resume. I in the 
same spot would have a strong Democratic resume. The obvious 
question is, can you put this aside? Do you feel like you have 
got water to carry here for the White House and the 
administration in this new position?
    Ms. Harrison. That is a three-part question and it is 
actually a very important question. First, let me say before I 
am a member of any party I am an American. For the last 4 
years, as I alluded to, I ran a bureau. During that period of 
time the OIG did its first review in 50 years of the Bureau of 
Educational and Cultural Affairs. I am very proud of the fact 
that what they found was that my leadership style, my 
management style, was inclusive, I am a team-builder.
    I have a track record in the private sector. Running a 
company, I could not tell you who is Republican and Democrat. 
When I take on, let me just call this a mission, I am looking 
at best achievable outcome and I think about the last day that 
I am going to be on the job. I have a strong enough ego to want 
to say because I took this job the entity, the organization, 
was stronger than before I came here.
    I am committed to this. Without going into braggadocio too 
much, I did have other opportunities, but I believe in the 
mission of public broadcasting. And I believe that the people 
who are concerned need to not only listen to what I say, but to 
watch what I do. I am going to fight for this. I am here 
fighting for this budget. I am now the CEO of the Corporation 
for Public Broadcasting and I know what my clear mission is.
    I fought for similar things. One of the reasons I wanted to 
do this, Senator, is I find a similar mission that I had at the 
Bureau of Educational and Cultural Affairs, where people look 
at exchanges and say, why do we need those people coming here. 
Basically, these things are the things that are really going to 
connect our country.
    I do not know what else to say. I was president of Capital 
Press Women. I have been an advocate for women. I founded an 
organization, National Women's Economic Alliance. I have 
written two books really focused on helping women. I feel 
confident that I am a fair person, that I have a great deal of 
integrity, and that nobody owns me ever. Plus I come from 
Brooklyn, New York, and I am an Italian-American.
    Senator Durbin. I have a daughter living in Brooklyn now. 
Maybe she is picking up some of the same attributes.
    Thank you to the panel. Mr. Chairman, thank you for your 
patience.

                         CPB USE OF CONSULTANTS

    Senator Specter. Senator Durbin, I thought you would not 
have any question after that last response.
    Mr. Tomlinson, the New York Times has reported a couple of 
payments, one for a lobbyist, $10,000 into the insights of a 
specific Senator. Is that true?
    Mr. Tomlinson. I described that situation a moment ago and 
with your indulgence I would like to go over how we got to that 
point.
    Senator Specter. Go ahead.
    Mr. Tomlinson. Our board discovered that there were 
interests in public broadcasting which wanted to put into the 
authorization bill language which would have required four of 
our members come from the public broadcasting community. The 
board was very concerned about this. We were unanimously 
opposed to this. When our board members, including our 
Democrats, called counterparts on Capitol Hill, they discovered 
quite a lot of work had gone into this on the part of the 
public broadcasting community.
    We have a small staff at CPB. Our legislative person the 
week we discovered this was on vacation. Our front office 
turned and hired to my knowledge, or at least had three--
brought in three different consultants to work that bill, to 
try to get to Capitol Hill----
    Senator Specter. Mr. Tomlinson, that is all very 
interesting, but why pay $10,000 to find insights into a 
Senator? Why not your picking up the phone and talking to him 
or going to pay him a visit, and save $10,000 on a very tight 
budget?
    Mr. Tomlinson. If our legislative person had been in town 
that week, that might have been the direction we would have 
gone.
    Senator Specter. Well, you had some protracted period of 
time to make the contact, did you not?
    Mr. Tomlinson. Yes.
    Senator Durbin. Do you not think the Senator would be a lot 
more impressed by having you in your position come talk to him, 
giving him your reasons, than the amorphous approach of 
somebody seeking insights into his background?
    Mr. Tomlinson. Absolutely. But the reason CPB has 
traditionally hired these consultants is because we have a 
small core staff and we tend to turn to the outside for help in 
these areas.
    Senator Durbin. And $5,000 being paid to provide advice on 
the legislative process for a month, without having talking to 
any of the lawmakers; is that also accurate?
    Mr. Tomlinson. Yes, although we--because this thing was 
sprung on us overnight. Our board, both Democrats and 
Republicans, we were absolutely unaware that for apparently 
weeks leaders in public broadcasting had been working to 
require that four of our nine members be drawn from the public 
broadcasting community. We did not think that was right.
    Senator Specter. Well, Mr. Tomlinson, when we see reports 
in the press about that and then have them confirmed by you, it 
raises a question at least in my mind as to the propriety of 
the expenditures. We Senators see a lot of people and I would 
repeat that if a man in your position came to see a Senator I 
think it would bear a lot more weight, or even a telephone 
call.
    So as a little guidance to the future, when you are short 
on budget to bear that in mind.
    Mr. Boaz, do you think that public broadcasting ought to 
take any further steps to seek the avoidance of what you 
consider to be political bias?
    Mr. Boaz. I think it is valuable to seek to avoid the bias, 
and I do think if you look at the examples--there is this 
report nobody has mentioned, that appeared in the newspaper 
``Current,'' the newspaper of public TV and radio, not by a 
conservative, that goes through looking at Bill Moyers show and 
points out several examples of heavy bias on the issues that 
mattered a lot to Mr. Moyers.
    One way you balance that is by having different programs 
there. I do not think the addition of the ``Wall Street Journal 
Editorial Report'' is going to balance the overall thrust of 
prime time programming on PBS.
    But as I say, I do believe that it is impossible to choose 
the topics and choose the speakers and choose the angles 
without having some perspective involved, and that is why, 
rather than seek political balance, put a Republican onto the 
CPB board, put a Republican somewhere into NPR or PBS, the 
better thing is to depoliticize the system, take it out of 
politics entirely.
    My guess is that public radio and television might be more 
adventurous if they did not have a Republican administration 
and a Republican Congress looking over their shoulders. Some 
people would remember a few years ago when PBS broadcast 
``Tales of the City'' and there was a lot of controversy 
because this was a fictional program that had some gay 
characters and some drugs involved in it. They decided not to 
do more ``Tales of the City.'' The commercial network Showtime 
picked it up and nobody complained, because it was not 
taxpayers' money, it was not an official government imprimatur, 
and we understand that in a free society Showtime can pretty 
much show what it wants to.
    So I think if you depoliticize you will avoid this problem 
of getting two ombudsmen or a new chairman, a new president. 
You take it completely out of the realm of politics.
    Senator Specter. Ms. Mitchell, do you think there is any 
substance at all to Mr. Boaz's contention of political bias on 
the public broadcasting?
    Ms. Mitchell. The public opinion polls certainly 
substantiate our firm conviction that we are producing a 
schedule that meets our editorial standards and that meets the 
obligations of fairness and balance.
    Might I also respond to something else I think you asked?
    Senator Specter. Before you go on to another subject, I do 
not think that is quite responsive to my question. My question 
was do you think there is any basis for Mr. Boaz's contention 
that there is political bias on public broadcasting?
    Ms. Mitchell. We take every allegation of that very 
seriously. Last year, out of 3,000 hours there were less than 
30 hours that rose to what we would consider any kind of 
question or controversy. But 2 years ago we looked at our 
editorial standards and said they need to be updated, we need 
to be very clear with our producers what we expect from them in 
terms of fairness and objectivity, accuracy, and transparency. 
So we clarified it.
    Senator Specter. Is your answer no?
    Ms. Mitchell. The answer is we work very hard to ensure 
that there is not, and when there is an opinion or a point of 
view, Senator, we are very clear that that is what the viewer 
is hearing; it is someone's point of view, someone's 
commentary.
    Senator Specter. Okay, I interpret that to mean possibly. 
To the extent that there is any possible bias, what you are 
saying is that you take every step you can to eliminate it?
    Ms. Mitchell. In dealing with controversial issues, we 
require of our producers that they do the most thorough, 
accurate, transparent process to examine--and we take on the 
complex issues, Mr. Chairman, as you know, many of which are 
not taken on by mainstream media. We do not attempt, except in 
our news programs, to balance everything within a segment or 
within a program, because that is what the law requires, and we 
believe that there is a better understanding and comprehension 
if you do it over a series of programs.
    But we take very seriously any charge that our programs are 
not representing the diversity of perspectives in this country. 
We think of ourselves as a big tent where a Bill Moyers and a 
Paul Gigot and a Travis Smiley and a Gwen Eifel all are 
welcome.
    Senator Specter. Ms. Harrison, do you have anything you 
would like to add? We are about to conclude the hearing.
    Ms. Harrison. Just very briefly. There are some mechanisms 
in place, because public broadcasting, the word most important 
is the ``public.'' So there is a toll-free number where viewers 
and listeners can call in. We direct them also to connected 
links. We have a very vigorous e-mail program.
    So we are hearing from viewers and listeners all the time, 
and these are remarks and observations that are not just 
dismissed. I am very busy answering my own enormous mail right 
now and I have to tell you the interesting thing is I am 
getting about the same degree from people saying it is too left 
and the same degree it is too right, concerns on both sides. I 
think we have a very passionate listener and viewer audience, 
and I think the Office of the Ombudsman is a good step.
    Senator Specter. Mr. Lawson, anything you care to add?
    Mr. Lawson. Yes, sir. My association was the author of the 
amendment in question that prompted Mr. Tomlinson to hire the 
two lobbyists. That just speaks to the need for----
    Mr. Tomlinson. I did not hire the lobbyists, John. They 
were hired by the front office.
    Mr. Lawson. Mr. Chairman, it just speaks to the need for 
greater transparency in the way that CPB operates. We would 
like to pick up the conversation we had with the Senate 
Commerce Committee last year and the rest of Congress to work 
out some reforms to the way CPB operates.
    Senator Specter. Mr. Tomlinson, awaiting the Moyers-
Tomlinson debate, do you have anything else to add now?
    Mr. Tomlinson. No, Mr. Chairman. Thank you so much for your 
support of public broadcasting.
    Senator Specter. Mr. Boaz, we will give you the last word 
if you want it.
    Mr. Boaz. I feel like Daniel in the lion's den. But I am 
glad to have the last word. I believe that the controversies 
that----
    Senator Specter. Daniel did not do too badly and neither 
have you.
    Mr. Boaz. I believe the controversies that we are 
discussing are an illustration of the problem I raised, that it 
is inevitable that you are going to have politicization if you 
have government funding. That is why I think public radio and 
television would be better off without government funding.

                     ADDITIONAL SUBMITTED STATEMENT

    Senator Specter. We have received an additional submitted 
statement that will be included in the record at this point.
    [The statement follows:]

              Prepared Statement of Americans for the Arts

    On behalf of Americans for the Arts, I am pleased to provide you 
this statement in support of funding for the Corporation for Public 
Broadcasting (CPB). As you know, recently the fiscal year 2006 funding 
for CPB was threatened during House subcommittee consideration. The 
House bill was substantially improved during full committee debate and 
floor action, but it is still inadequate. I write to you today to ask 
for your support in keeping CPB fully funded.
    Americans for the Arts is the service organization for the nation's 
4,000 local arts agencies, which provide $1 billion of annual funding 
and support for the arts and humanities at the local level. It is 
important to note at the outset that many local arts agencies are 
important partners, and funders, of local public television and radio 
stations. We are asking the federal government to continue to honor its 
commitment to public broadcasting, just as local arts agencies continue 
to honor theirs.
    CPB supports public television and radio through its partners, the 
Public Broadcasting Service (PBS) and National Public Radio (NPR). 
These organizations provide important access to the arts for millions 
of Americans. With both community-based arts programming, and 
nationally televised shows such as ``On Stage at the Kennedy Center'' 
and ``Austin City Limits,'' public broadcasting is often a primary 
source of arts programming in many rural parts of the country. Public 
broadcasting also serves as an important source of information about 
live arts performances and exhibitions. Any reduction to its budget 
would drastically reduce the access that many Americans have to the 
arts.
    Public broadcasting's national programs are probably well known to 
members of the Committee. While you are probably familiar also with 
local programming in your own state, I would like to provide a few 
examples of local arts programming from around the country.
  --In Pittsburgh, WQED, the nation's first community-owned television 
        station, airs ``Performance in Pittsburgh'' featuring recorded-
        in Pittsburgh concert highlights as well as interviews with 
        Pittsburgh musicians and presenters. The WQED-FM, the radio 
        station produces ``Pittsburgh Symphony Radio'' presenting the 
        Pittsburgh Symphony Orchestra's recent concerts at Heinz Hall, 
        archival tapes and tour performances.
  --Iowa Public Television (IPT) has a show named, ``A Century of Iowa 
        Architecture,'' which uses high definition cameras to capture 
        the details and drama behind the construction and design of 
        Iowa's most significant buildings. Also, as part of its School-
        to-Careers programming IPT has programming specifically on 
        becoming an artist. The National Employer Leadership Council 
        (NELC) highlighted Iowa Public Television in its publication 
        Best Practices in School-to-Careers: Rural Issues.
  --The Mississippi Arts Council and Mississippi Public Broadcasting 
        produced a seven-part radio show titled, ``Sounds From Around 
        the Corner'' which included gospel and old-time fiddling, as 
        well as more recent immigrant traditions such as Latino music 
        and classical Indian singing--all performed by Mississippi 
        artists.
  --In Alaska, CPB has provided funding for the weekly ``AK'' cultural 
        magazine show produced by the Alaska Public Radio Network. In 
        2003, Public Radio News Directors International voted AK second 
        place nationally for ``Best Public Affairs Program''.
    Budget cuts would heavily impact public radio broadcasting, as CPB 
funding represents 15 percent of the budget for many individual member 
stations of NPR. If they lose that support, many of them will have to 
make severe cuts to their programming and local services. This will 
especially impact rural areas and stations serving minority 
populations, as they heavily rely on federal funding for their 
operating budgets. While local and state arts agencies also support 
these stations, they could not make up for a loss of federal funding on 
this scale.
    While the House partially restored CPB funding, its legislation, as 
passed, eliminated $39 million to help local stations switch to digital 
transmission, $40 million to upgrade aging satellite technology, and 
made a $23 million cut to the ``Ready to Learn'' program, which 
provides money for the creation of shows such as ``Sesame Street'' and 
``Reading Rainbow.'' These are all important items for CPB operations. 
We hope you will fully fund these programs in your subcommittee 
consideration, and that you will fight for them in conference with the 
House.
    With your leadership, we can insure that CPB funding is adequately 
funded, and that public television and radio can continue to provide 
high quality arts and cultural programming to our nation.

                         CONCLUSION OF HEARINGS

    Senator Specter. Thank you all very much for coming in. Let 
me tell you, drawing four Senators on a Monday morning in 
Washington is high praise for this panel and this subject. That 
concludes our hearings.
    [Whereupon, at 12:39 p.m., Monday, July 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
